<html>
<title> - US AIRWAYS FLIGHT 1549 ACCIDENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    US AIRWAYS FLIGHT 1549 ACCIDENT

=======================================================================

                                (111-10)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                  U.S. GOVERNMENT PRINTING OFFICE
47-866                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
LEONARD L. BOSWELL, Iowa             SHELLEY MOORE CAPITO, West 
TIM HOLDEN, Pennsylvania             Virginia
MICHAEL E. CAPUANO, Massachusetts    JIM GERLACH, Pennsylvania
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
MAZIE K. HIRONO, Hawaii              CONNIE MACK, Florida
HARRY E. MITCHELL, Arizona           LYNN A WESTMORELAND, Georgia
JOHN J. HALL, New York               JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
JOHN A. BOCCIERI, Ohio               BRETT GUTHRIE, Kentucky
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
ELLEN O. TAUSCHER, California
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii
H.Res. 84 ``Honoring the heroic actions of the pilot, crew, and 
  rescuers of US Airways Flight 1549''...........................    xv

                               TESTIMONY

Carey, Captain John, Chairman, Accident and Investigation 
  Committee, U.S. Air Line Pilots Association....................    33
Dail, Flight Attendant Sheila, US Airways, Inc...................     7
Dent, Flight Attendant Donna, US Airways, Inc....................     7
Gilligan, Margaret, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................    33
Harten, Patrick F., Air Traffic Control Specialist, New York 
  Terminal Radar Approach Control................................     7
Kolander, Candace K., Coordinator, Air Safety, Health, and 
  Security, Association of Flight Attendants-CWA, AFL-CIO........    33
Ostrom, John, Chairman, Bird Strike Committee-USA, Manager, 
  Airside Operations, Minneapolis-St. Paul International Airport, 
  accompanied by Richard Dolbeer, Chairman, (1997-2008) Bird 
  Strike Committee-USA...........................................    33
Prater, Captain John, President, Air Line Pilots Association, 
  International..................................................    33
Reis, Mark, Managing Director, Seattle-Tacoma International 
  Airport, Board Member, Airports Council International of North 
  America........................................................    33
Skiles, First Officer Jeffrey B., US Airways, Inc................     7
Sullenberger, III, Captain Chesley B., US Airways, Inc...........     7
Sumwalt, III, Hon. Robert L., Member, National Transportation 
  Safety Board, accompanied by Tom Haueter, Director, Office of 
  Aviation Safety, National Transportation Safety Board..........    33
Welsh, Flight Attendant Doreen, US Airways, Inc..................     7

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    53
Costello, Hon. Jerry F., of Illinois.............................    54
Johnson, Hon. Eddie Bernice, of Texas............................    59
McMahon, Hon. Michael E., of New York............................    62
Mica, Hon. John L., of Florida...................................    65
Mitchell, Hon. Harry E., of Arizona..............................    72
Oberstar, Hon. James L., of Minnesota............................    73
Petri, Hon. Thomas E., of Wisconsin..............................    76

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Carey, Captain John..............................................    81
Gilligan, Margaret...............................................    92
Harten, Patrick F................................................   116
Kolander, Candace K..............................................   120
Ostrom, John.....................................................   164
Prater, Captain John.............................................   172
Reis, Mark.......................................................   192
Skiles, First Officer Jeffrey B..................................   208
Sullenberger, III, Captain Chesley B.............................   214
Sumwalt, III, Hon. Robert L......................................   217

                       SUBMISSIONS FOR THE RECORD

Gilligan, Margaret, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration, responses to questions from 
  the Subcommittee...............................................   105
Prater, Captain John, President, Air Line Pilots Association, 
  International, ``Wildlife Hazard Mitigation Strategies for 
  Pilots,'' February 2009, executive summary.....................   184
Skiles, First Officer Jeffrey, US Airways, Inc., expanded 
  testimony......................................................   211

                        ADDITIONS TO THE RECORD

DeTect, Inc., Gary W. Andrews, Chief Executive Officer, written 
  statement......................................................   237
US Airways Group, W. Douglas Parker, Chairman and Chief Executive 
  Officer, written statement.....................................   248

[GRAPHIC] [TIFF OMITTED] T7866.001

[GRAPHIC] [TIFF OMITTED] T7866.002

[GRAPHIC] [TIFF OMITTED] T7866.003

[GRAPHIC] [TIFF OMITTED] T7866.004

[GRAPHIC] [TIFF OMITTED] T7866.005

[GRAPHIC] [TIFF OMITTED] T7866.006

[GRAPHIC] [TIFF OMITTED] T7866.007

[GRAPHIC] [TIFF OMITTED] T7866.008

[GRAPHIC] [TIFF OMITTED] T7866.009

[GRAPHIC] [TIFF OMITTED] T7866.010

[GRAPHIC] [TIFF OMITTED] T7866.011



               HEARING ON US AIRWAYS FLIGHT 1549 ACCIDENT

                              ----------                              


                       Tuesday, February 24, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask all Members, staff, and everyone to turn all 
electronic devices off or on vibrate. The Subcommittee is 
meeting today to hear testimony on the US Airways Flight 1549 
accident.
    Let me mention that the three flight attendants just left a 
meeting in my office, and they were delayed in the hall by 
Congresswoman Foxx. She is meeting with them briefly. They 
should be here momentarily.
    We will go ahead and proceed. I would expect that they will 
be here by the time that I finish my opening statement and the 
Ranking Member, Mr. Petri, does as well.
    I intend to give a brief opening statement, then I will 
recognize the Ranking Member, Mr. Petri, for his opening 
statement, and recognize other Members. We would encourage 
Members to insert their statements in the record; and let all 
of our witnesses know that their entire statement will be 
inserted in the record as well.
    I just explained to everyone here why you were a little bit 
late, that you were meeting with myself and Congresswoman Foxx. 
Please be seated.
    I welcome everyone to the Aviation Subcommittee hearing 
today on US Airways Flight 1549. I want to thank our witnesses 
for being here today, especially the flight crew, the pilots, 
the flight attendants, and the air traffic control specialist 
that brought US Airways Flight 1549 down safely on the Hudson 
River. I know my colleagues will join me and Mr. Petri in 
giving them a round of applause for doing an outstanding job in 
saving the lives of so many people.
    As everyone knows by now, on January 15, 2009, US Airways 
Flight 1549 was departing LaGuardia Airport for Charlotte, 
North Carolina, and within minutes, lost engine power. Captain 
Chesley Sullenberger, III and First Officer Jeffrey Skiles 
realized the seriousness of the situation, and immediately 
sought a safe place to land.
    The Hudson River was their only option; and these two 
pilots, as well as Flight Attendants Sheila Dail, Doreen Welsh, 
and Donna Dent worked together to prepare the 150 passengers 
for the emergency landing. The crew did an excellent job on the 
controlled landing in the Hudson River.
    This incident demonstrates the importance of training and 
preparation, showcases the skill of our aviation workforce, and 
reinforces the importance of consistent vigilance and oversight 
of aviation safety.
    I would be remiss if I did not mention that just a few 
short weeks ago, after this incident, the entire Nation mourns 
the loss of Colgan Air Flight 3407, the crew and their 
passengers. Fifty people died as a result of that crash. 
Information is still being gathered, and an investigation is 
under way to determine the cause of that crash.
    The United States has the safest air transportation system 
in the world. In 2007, there was only one fatal accident in 
10.9 million U.S. airline departures. However, we must not 
become complacent about our past success.
    These recent accidents once again place aviation safety in 
the spotlight. It is the responsibility of this Subcommittee to 
ensure that the Federal Aviation Administration is fulfilling 
its duties to provide effective oversight of every aspect of 
the aviation system; and I am interested in hearing today from 
the FAA and the NTSB board on these issues.
    This situation also highlights the association between 
training, workforce development, and aviation safety. The 
current economy has the entire workforce being asked to do more 
with less, including work longer hours. To that point, we must 
make certain that fatigue does not become an issue, as it 
creates risks to the safety of the air traffic system.
    Finally, even though the bird strikes that caused US 
Airways Flight 1549 to lose both engines and land in the Hudson 
River has brought greater attention to the issue, the danger 
presented by avian life is not new. The Seattle-Tacoma 
International Airport, in conjunction with the University of 
Illinois in my home State, is using an enhanced radar system to 
better deal with bird detection. O'Hare, JFK, and Dallas/Fort 
Worth International Airports are all slated to receive similar 
radar systems this year. I am interested in hearing more about 
this technology from Mr. Mark Reis on the second panel.
    Again, I thank the flight crew, the air traffic control 
specialist for being here today. I commend all of you for a job 
well done, and look toward to your firsthand account of the 
January 15, 2009 accident, and what we can learn from the 
incident for the future.
    Before I recognize Mr. Petri for his opening statement, I 
ask unanimous consent to allow 2 weeks for all Members to 
revise and extend their remarks, and to permit the submission 
of additional statements and material by Members and witnesses. 
Without objection, so ordered.
    At this time the Chair recognizes the Ranking Member of the 
Subcommittee, Mr. Petri.
    Mr. Petri. Thank you very much. Good morning and welcome to 
this hearing this morning.
    It seems that we in Congress routinely, or at least 
regularly, call up Federal officials, industry representatives, 
and others in order to lambaste and criticize for some 
deficiency or another. After all, that at least is part of our 
job in providing oversight. I think it is also important that 
we stop and take a moment to recognize when things actually do 
go right.
    On January 15th, a lot went right in the middle of a 
horrifying situation; and I think we owe those involved to say, 
"Job well done." At the same time, as we hear their 
experiences, we can learn some important lessons for the 
future.
    As Captain Sullenberger has repeatedly pointed out, the 
positive outcome of Flight 1549 was a team effort from those in 
the air, on the ground, and on the water. I would be remiss if 
I did not acknowledge the courageous actions of the flight 
crew, air traffic controllers, rescue teams, and the passengers 
themselves. Their professionalism, bravery, and calm under 
pressure prevented a catastrophe. And for that, we thank them 
all.
    So what have we learned so far from the events of January 
15th? Clearly, training played a central role. Without proper 
training, even the most advanced avionic equipment is of no 
value. The fact that Flight 1549 was able to make an emergency 
landing and quickly evacuate--in a river, no less--without any 
serious injury, proves the effectiveness of pilot and crew 
training programs. The assistance provided by air traffic 
controllers and quick response by rescue teams are also 
indicative of the importance of quality training. So many of 
them have said that when confronted with the situation their 
training simply kicked in and they knew exactly what to do.
    Let's not forget other factors that contributed to this 
positive outcome. High certification standards ensured the 
plane's survivability after the bird strike, double engine 
failure, and controlled ditching into the Hudson River. Even 
more, they allowed the plane to stay afloat as passengers and 
crew were evacuated and rescued. These standards are 
established to improve safety and enhance aircraft 
survivability; and in this case, they saved lives. Procedures 
were followed, standards were met, training was applied, and 
rescue was immediate. It was, all things considered, a good day 
for those aboard Flight 1549 and, thankfully, a learning 
experience for the aviation community.
    Despite the success, we must continue to promote the best 
possible training and the highest equipment standards. Let's 
also thoroughly analyze the cause of the accident, which 
appears to be bird strikes, and seek ways to mitigate them in 
the future. Dedication to safety has made our aviation system 
the safest in the world, and we need to continue to work to 
keep it that way.
    Again, I would like to thank the Chairman for calling this 
hearing and our witnesses for taking the time to join us today. 
I look forward to your testimony, and yield back the balance of 
my time.
    Mr. Costello. The Chair thanks the Ranking Member.
    And again I would encourage Members to submit statements in 
the record. But if any Member would like to be recognized at 
this time, I think the Chair would recognize Mr. Hall from New 
York.
    Mr. Hall. Thank you, Mr. Chairman. And my congratulations 
and praise to our panel members, who, I think, inspired this 
country with your actions as well as providing a great deal of 
relief.
    I have sailed that stretch of the Hudson River many times 
in my own different vessels over the years; and if I had been 
told that a commercial airliner could safely land in a busy 
river--the Hudson River especially--in that temperature, and 
everyone had survived, I would have thought that it was a 
daydream or it was somebody's imagination.
    But you made it come true. Everything had to go right, and 
everything did, thanks to your training and execution.
    All of us in Congress--most of us in Congress fly every 
week in and out of Washington, DC, and so I am quite familiar 
with the instructions that the crew give to passengers in the 
event of a water landing, et cetera, et cetera. In the words of 
the late George Carlin, most of us think of that as "Put your 
head between your legs, and dot-dot-dot"--you know the rest.
    But I think obviously you and the first responders and the 
captains of the vessels that came out to meet the plane and to 
rescue you and your passengers, everybody did a very difficult 
job very well, and the training definitely paid off. There was 
heroism and bravery as well as skill.
    Captain Sullenberger, First Officer Skiles, Flight 
Attendants Dail, Welsh, and Dent, when you rescued your 150 
passengers, you rescued a number of my constituents from the 
Hudson Valley, and I thank you for them and their families.
    And Controller Harten, one of the little-known voices who 
enable our airways to be as safe as they are through constant 
communication with every plane in the air, as a New Yorker I 
was proud of the actions of all of the people involved; and 
want to thank you on behalf of my constituents and New Yorkers 
in general.
    I look forward to hearing your testimony, and considering 
the serious issues regarding air travel and the dangers of bird 
strikes, what possible remediation or changes can be made to 
lessen the dangers from them. And once again, thank you for 
being here.
    And thank you, Mr. Chairman, for the opportunity to speak.
    Mr. Costello. The Chair thanks the gentleman from New York, 
and now recognizes the gentleman from North Carolina, Mr. 
Coble.
    Mr. Coble. Mr. Chairman, don't ever offer us a chance to 
make an opening statement, because we will grab the mike 
without exception.
    You and the Ranking Member have already said it, but I 
would like to repeat it, and I don't think we can repeat it 
often enough: Captain Sullenberger, First Officer, Flight 
Attendants, Air Controllers, Passengers, it appears all of you 
remained calm in a very, very stressful climate; and you are to 
be commended. I guess, Captain, probably the most famous quote 
of 2009 will be the calmly spoken phrase, "We are going to be 
in the Hudson." And you were indeed there, but you all were 
heroes as far as I am concerned.
    And Mr. Chairman, I thank you and Mr. Petri for having 
called this hearing.
    Mr. Costello. The Chair thanks you, and now recognizes the 
gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman and Ranking Member 
Petri.
    I am Mike McMahon, a new Member of Congress from Staten 
Island, New York, which of course is very close to where this 
miracle on the Hudson occurred. And I have a prepared 
statement, but in the interests of time, I won't read it; but 
just say to you, to all of you, on behalf of the people who 
were on the ground, in that harbor; and through the--you know, 
really as we all know through the horrors of 9/11 and then 2 
years after we had the horrible ferry crash right in our 
harbor--you saved not only the lives of the people on that 
plane, and yourselves, thank God, but also so many people on 
the ground as well.
    On behalf of them, the countless many lives you saved, we 
thank you as well.
    And we are here today to learn from your experiences to 
make air travel more safe. And certainly people talk about it 
being a miracle on the Hudson, but as we know, it was no 
miracle. You were well trained.
    But there was something more. In your hearts there was 
courage. And we know that heroes are ordinary people who do 
extraordinary things in any given moment. And to all of you, 
you are heroes for the lives you saved and what you did risking 
your own lives.
    On behalf of the people I represent, all New Yorkers and 
all New Jerseyites, thank you and God bless you.
    Mr. Costello. The Chair thanks the gentleman and recognizes 
the gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I will be very brief.
    First of all, I wanted to thank you for being here. And I 
am also thankful, since I am a sometime pilot, that you were 
piloting that plane and I wasn't. It made all the difference in 
the world, I am sure. But I also thank the Lord that all of you 
are here and all the passengers, and you are safe and sound. 
And thank you very much.
    Yield back.
    Mr. Costello. The Chair thanks the gentleman from Michigan 
and recognizes the gentleman from Arizona, Mr. Mitchell.
    Mr. Mitchell. Thank you, Mr. Chairman. I want to take this 
opportunity to commend the unparalleled bravery exhibited by 
Captain Chesley Sullenberger and his crew on US Airways Flight 
1549 on January 15, 2009. You know, the cool heads, sound 
judgment, and practiced safety procedures saved not only 155 
lives on board, but countless more that could have been injured 
or killed on the ground.
    I am so proud that US Airways calls Tempe, Arizona, home, 
which is also my home; and I am also especially proud of the 
heroic crew of Flight 1549. I look forward to hearing more from 
our witnesses on what happened on that fateful day and what we 
can do to further prevent other incidences.
    I yield back.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentlelady from California, Ms. Richardson.
    Ms. Richardson. Yes. Thank you, Mr. Chairman. I know you 
are looking forward to getting this under way, so I will be as 
brief as possible.
    First of all, I want to applaud you, Mr. Chairman. I have 
been on this Committee my entire time now being in Congress, 
and you always put the most pertinent issues right on the table 
right away--good, bad, or indifferent. And this is no exception 
in your approach to the work that we do in this Committee. So 
thank you for the access and what we will be able to learn in 
this hearing, in particular.
    It is not uncommon that we have safety hearings, as I just 
said, related to what is going on in the air. Chairman Costello 
has been very aggressive in that fact. And I also look forward 
to learning from something that happened right. Oftentimes, we 
are looking at the wrong situations, but clearly this situation 
we need to duplicate.
    To the air traffic controllers who sometimes--it was--you 
are the silent angels out there. When I heard the radio of what 
you guys were talking about going back and forth, them giving 
different options and trying to assist, I think is also worthy 
of acknowledgment.
    But finally, let me say to, I believe it is the flight 
attendant Ms. Welsh, who I had an opportunity to watch--is that 
you right here? Yes.
    I had an opportunity to see several interviews. And I hope 
what you will stress in your testimony is the unfortunate part 
of what I think happened in the rear of the plane. And as has 
been said by other people, we fly. I fly from California two 
times a week. And I have never heard that if you happen to land 
on water you don't want to, you know, open the rear end of the 
airplane.
    So to the degree that we all sit there and we hear the 
instructions week after week after week, I never recall hearing 
that. And so whatever you can share with us as a body of what 
we can do maybe from a safety or regulation perspective to 
stress to the public that not every situation is going to be 
typical and how we have to adjust--and thank goodness you were 
there and were able to assist us. And I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you. And now we will 
recognize our witnesses. Let me introduce the witnesses on our 
first panel. Captain Chesley Sullenberger, III, who now is 
known to America as "Sully"; our First Officer, Jeffrey Skiles; 
Flight Attendant Sheila Dail, Flight Attendant Donna Dent, and 
Mr. Patrick Harten, who is the Air Traffic Control Specialist, 
New York Terminal Radar Approach Control.
    And now I will yield to my friend from Pennsylvania, Mr. 
Altmire, to introduce Doreen Welsh.
    Mr. Altmire. And I thank the Chairman. And I didn't want to 
let the moment go by without recognizing that on January 15th 
the entire country saw the unmatched courage, skill, and 
heroism of the entire crew. But in western Pennsylvania we were 
especially proud of Flight Attendant Doreen Welsh, who is going 
to testify today.
    So as a constituent, I just want you to know that I am 
proud of you, and western Pennsylvania is incredibly proud of 
your efforts on that day. And thank you for being here.
    Mr. Costello. The Chair thanks the gentleman.

   TESTIMONY OF CAPTAIN CHESLEY B. SULLENBERGER, III, FIRST 
OFFICER JEFFREY B. SKILES, FLIGHT ATTENDANT SHEILA DAIL, FLIGHT 
  ATTENDANT DONNA DENT, AND FLIGHT ATTENDANT DOREEN WELSH, US 
   AIRWAYS, INC.; AND PATRICK F. HARTEN, AIR TRAFFIC CONTROL 
      SPECIALIST, NEW YORK TERMINAL RADAR APPROACH CONTROL

    Mr. Costello. And now we will recognize Captain 
Sullenberger.
    And let me say that for all of our witnesses on both the 
first and second panel, that we will be under the 5-minute 
rule. We would ask that you summarize your testimony. Your 
entire testimony will be submitted for the record. And of 
course after your testimony, we will get to questions from 
Members.
    So Captain Sullenberger, you are recognized.
    Mr. Sullenberger. Thank you, Chairman Costello, Ranking 
Members Mica and Petri, and other Members of the Committee. It 
is my great honor to appear before the Aviation Subcommittee 
today.
    I am proud of the fact that I have been involved in 
aviation for the last 42 years. During that time, I have served 
our country as a U.S. Air Force pilot, served as an Air Line 
Pilots Association local Air Safety Committee Chairman, 
accident investigator, and national technical Committee Member. 
I have amassed a total flying time of almost 20,000 hours, and 
flown approximately 1 million passengers in my 29 years as a 
professional airline pilot.
    I have served as a check airman and a Crew Resource 
Management course developer and facilitator. I am also the 
founder of Safety Reliability Methods, Inc.
    Before I begin, I must first say that my heart goes out to 
all those affected by the tragic loss of Continental Connection 
Colgan Air Flight 3407. Words cannot express my sadness and 
grief at the loss of 50 lives. The families of those no longer 
with us are in my thoughts and in my heart.
    The events of January 15, 2009, have been well documented, 
and rather than recite them now in great detail, I want only to 
reiterate to the Subcommittee that the successful outcome was 
achieved by the actions of many. Lives were saved due to the 
combination of a very experienced, well-trained crew, First 
Officer Jeff Skiles, and Flight Attendants Donna Dent, Doreen 
Welsh, and Sheila Dail, all of whom acted in a remarkable 
display of teamwork, along with expert air traffic controllers, 
the orderly cooperation of our cool-headed passengers, and the 
quick and determined actions of the professional and volunteer 
first responders in New York City.
    The events of January 15th serve as a reminder to us all of 
the daily devotion to duty of the many thousands of aviation 
professionals who keep air travel safe, and also as a reminder 
of what is really at stake. I, like thousands of my 
professional airline pilots, know that flying a large 
commercial airline is a tremendous responsibility. We clearly 
understand that our passengers put their lives in our hands. We 
know that we must always be prepared; we must always 
anticipate; we must always be vigilant. Expecting the 
unexpected and having an effective plan for dealing with it 
must be in the very makeup of every professional airline pilot.
    I am not only proud of my crew, I am proud of my 
profession. Flying has been my lifelong passion. I count myself 
fortunate to have spent my life in the profession I love, with 
colleagues whom I respect and admire.
    But while I love my profession, I do not like what has 
happened to it. I would not be doing my duty if I did not 
report to you that I am deeply troubled about its future. 
Americans have been experiencing huge economic difficulties in 
recent months, but airline employees have been experiencing 
those challenges and more for 8 years. We have been hit by an 
economic tsunami.
    September 11th, bankruptcies, fluctuating fuel prices, 
mergers, loss of pensions, and revolving-door management teams 
who have used airline employees as an ATM have left the people 
who work for the airlines in the United States with extreme 
economic difficulties. It is an incredible testament to the 
collective character, professionalism, and dedication of my 
colleagues in the industry that they are still able to function 
at such a high level.
    It is my personal experience that my decision to remain in 
the profession I love has come at a great financial cost to me 
and to my family. My pay has been cut 40 percent, my pension, 
like most airline pensions, has been terminated and replaced by 
a PBGC guarantee worth only pennies on the dollar.
    While airline pilots are by no means alone in our financial 
struggles, I want to acknowledge how difficult it is for 
everyone right now. It is important to underscore that the 
terms of our employment have changed dramatically from when I 
began my career, leading to an untenable financial situation 
for pilots and their families. When my company offered pilots 
who had been laid off the chance to return to work, 60 percent 
refused.
    Members, I attempt to speak accurately and plainly, so 
please do not think I exaggerate when I say I do not know a 
single professional airline pilot who wants his or her children 
to follow in their footsteps. I am worried that the airline 
piloting profession will not be able to continue to attract the 
best and the brightest.
    The current experience and skills of our country's 
professional airline pilots come from investments made years 
ago, when we were able to attract the ambitious, talented 
people who now frequently seek professional careers elsewhere. 
That past investment was an indispensable element in our 
commercial aviation infrastructure, vital to safe air travel 
and our country's economy and security. If we do not 
sufficiently value the airline piloting profession and future 
pilots are less experienced and less skilled, it logically 
follows that we will see negative consequences to the flying 
public and to our country.
    We face remarkable challenges in our industry. In order to 
ensure economic security and an uncompromising approach to 
passenger safety, management must work with labor to bargain in 
good faith, we must find collective solutions that address the 
huge economic issues we face in recruiting and retaining the 
experienced and highly-skilled professionals that the industry 
requires and that passenger safety demands. But further, we 
must develop and sustain an environment in every airline and 
aviation organization, a culture that balances the competing 
needs of accountability and learning.
    We must create and maintain the trust that is the 
absolutely essential element of a successful and sustainable 
safety reporting system to detect and correct deficiencies 
before they lead to an accident. We must not let the economic 
and financial pressures detract from a focus on constantly 
improving our safety measures and engaging in ongoing and 
comprehensive training. In aviation, the bottom line is that 
the single most important piece of safety equipment is an 
experienced, well-trained pilot.
    Despite the bad economic news we have experienced in recent 
times, despite the many challenges we face as a country, I have 
faith in America, in our people, in our promise. I briefly 
touched upon some major problems in my industry today, but I do 
not believe that they are intractable should we decide to work 
collectively to solve them.
    We all have roles to play in this effort. Despite the 
economic turbulence hitting our industry, the airline companies 
must refocus their attention and their resources on the 
recruitment and retention of highly-experienced and well-
trained pilots, and make that a priority that is at least equal 
to their financial bottom line.
    Jeff and I and our fellow pilots will fly our planes and 
continue to upgrade our education and our skills while we 
attempt to provide for our families. Patrick and the other 
talented air traffic controllers will continue to guide us 
safely through the skies. Our passengers will spend their hard-
earned money to pay for their travel. And our flight 
attendants, mechanics, ground crews, and administrative 
personnel will deal with the thousands of constant details and 
demands that keep our planes safely in the air.
    You can help us, Mr. Chairman, honorable Members, to work 
together across party lines and can demand or legislate that 
labor, management, safety experts, educators, technical 
experts, and everyday Americans join together to find solutions 
to these problems.
    We all honor our responsibilities in good faith and respect 
one another. We must keep the American commercial aviation 
industry safe and affordable for passengers, and financially 
viable for those who work in the industry day-to-day. And for 
those talented young men and women considering what to do with 
their lives, we must restore the narrative of a compelling 
career path in aviation with sufficient economic resources to 
once again make this vision a reality.
    Thank you for your kind attention and for the opportunity 
to share my experiences with this Committee.
    Mr. Costello. We thank you, Captain Sullenberger.
    And now the Chair recognizes First Officer Skiles.
    Mr. Skiles. Thank you, Chairman Costello and Ranking 
Members Mica and Petri, and Members of the Committee. I am also 
honored to appear before the Aviation Subcommittee today. I am 
going to summarize my statement, which I have already 
submitted.
    I think the word of the day today is "experience," 
obviously, looking at us. I myself have 20,000 flying hours. I 
have been a captain at US Airways in the past, but due to 
cutbacks, I am flying as a first officer right now. And I have 
been flying for 32 years myself.
    Much has been made of the cockpit crew and our 
participation in this, but I think it would be remiss if I 
didn't acknowledge once again the fantastic contribution that 
Donna Dent, Doreen Welsh, and Sheila Dail made to the 
successful outcome that day; and also the captains and crews of 
the ferry boats, the first responders, air traffic controllers. 
Obviously, in the press they are calling us heroes, but there 
were a whole lot of heroes on that day.
    Our profession carries a tremendous responsibility. And 
this has brought into me a renewed appreciation for the fact 
that this is a serious job for serious people. We have 
dedicated our lives to this profession, and it appears as if on 
that particular day we were five people in the right place at 
the right time.
    Sully and I have 70 years and 40,000 hours of flying 
between us; and the flight attendants have many, many years 
between them. In fact, if I told you, you would probably 
investigate US Airways for violating child labor laws on the 
date that they were hired.
    One of our concerns, though, is that this is something that 
is fading from our industry. Newly hired pilots at our 
affiliate carriers have as little as 300 flying hours when they 
start work. When I was hired, they required 3,000 hours to even 
be considered for an interview.
    What the country has experienced financially in the last 8 
months we have experienced for the last 8 years in our industry 
since 9/11. Financial turmoil, bankruptcies, layoffs, and 
revolving-door management teams have decimated our airlines and 
our careers. I myself make about half of what I once made, and 
I have lost my retirement to a PBGC promise.
    Many pilots work two jobs. I myself am a general 
contractor. Sully does consulting. We work 7 days a week, and 
we split our focus between our two careers to maintain our 
middle-class lifestyles.
    When I was hired in this business there were airline 
dynasties. Whole families were employed in the aviation 
business. You would fly with a captain, he might have five 
children, they all were pilots, flight attendants, agents. Now 
I know of no one that encourages their children to go into 
aviation.
    We are extremely grateful for the outpouring of support and 
gratitude that we have received. But we do feel the 
responsibility to our fellow pilots to advocate for them. Our 
labor negotiations system does not work; we are not looking for 
special privileges, but we are looking for a level playing 
field.
    The balance of power has shifted greatly, and the state of 
the piloting profession is the proof. National Mediation Board 
negotiations drag on forever. We would ask that you look at 
possible reforms of the National Mediation Board, and also the 
Railway Labor Act that we work under.
    Our colleagues have rallied around us in this. And we 
believe that we showed what well-trained professional crews can 
do in times of crisis. And we are gratified that our colleagues 
in aviation seem to look at us as a positive reflection of 
themselves and our shared professions.
    We ask that Congress take seriously the challenges that we 
aviation professionals face. And we ask that Congress work with 
us to protect our profession so that in the future we can 
attract the best and the brightest to be pilots and flight 
attendants in America.
    Thank you.
    Mr. Costello. The Chair thanks you, Mr. Skiles, and now 
recognizes for any testimony, comments that the flight 
attendants would like to add, and now recognizes Sheila Dail.
    Ms. Dail. Thank you very much, Mr. Chairman and fellow 
Congressmen of the Committee. I do not have a prepared 
statement. But I will be happy to answer any questions or 
comments concerning my profession, my training, my experience. 
I am open to anything today.
    Mr. Costello. We thank you, and we thank you for being 
here. The Chair now recognizes Donna Dent for any comments that 
she would like to offer.
    Ms. Dent. Mr. Chairman, I, as well, do not have a prepared 
statement, and I also would be--I feel very honored to be here, 
and am more than ready to answer any questions that anyone may 
have for me.
    Mr. Costello. Ms. Welsh?
    Ms. Welsh. Same thing, Mr. Chairman. We did not prepare 
statements, the flight attendants, but we are willing to answer 
questions. And it is an honor to be here. Thank you.
    Mr. Costello. We thank you. We thank all three of you for 
being here. And the Chair now recognizes Mr. Harten for his 
testimony.
    Mr. Harten. Good morning, Chairman Costello, Ranking Member 
Petri. My name is Patrick Harten. I have been an air traffic 
controller at the New York TRACON, and a proud Member of the 
National Air Traffic Controllers Association for the past 10 
years.
    While January 15, 2009, is forever etched in my memory, it 
began unremarkably. I arrived at work at 12:30 p.m. to begin my 
8-hour shift. At 3:12 p.m., I was assigned to work LaGuardia 
radar position. This position handles all departures from 
LaGuardia Airport. At 3:25 p.m., the LaGuardia tower control 
advised me that Cactus 1549 was the next departure rolling for 
takeoff. Just for clarification, Cactus is the call sign for US 
Airways. It was a routine, westbound departure off Runway 4, 
traveling due north on a 360-degree heading and climbing to 
5000 feet.
    I instructed Cactus to climb to 1-5000 and turned my 
attention to another aircraft to give him instructions under my 
control. I then turned back to Cactus 1549 and instructed him 
to turn left to a heading of 270, heading the aircraft towards 
its destination. That is when the captain advised me that they 
suffered a bird strike, lost thrust in both engines, and needed 
to return to LaGuardia for an emergency landing.
    When a pilot tells a controller he needs to make an 
emergency landing, the controller must act quickly and 
decisively. I made a split-second decision to offer him Runway 
13, which was the closest to his current position, and turned 
him left to a heading of 220 so he could return to the airport. 
I then immediately contacted LaGuardia tower and asked them to 
stop departures and clear the runway for an emergency return.
    While I have worked 10 or 12 emergencies over the course of 
my career, I have never worked an aircraft with zero thrust 
capabilities. I understood how grave the situation was. After I 
gave him his instructions, the captain very calmly stated, "We 
are unable." I quickly vectored another aircraft that was still 
in my airspace, and gave 1549 a second option, land on 
LaGuardia Runway 31. Again the captain said, "Unable."
    I then asked the captain what he needed to do to land 
safely. At this point, my job was to coordinate and arrange for 
the pilot to be able to do whatever was necessary. The pilot 
told me he could not land on any runway at LaGuardia, but asked 
if he could land in New Jersey and suggested Teterboro.
    I had experience working traffic into Teterboro from my 
time working in the Newark sector. And after coordinating with 
the controllers in Teterboro, we were able to determine that 
Runway 1 was his best option. It was an arrival runway and 
clearing it for an emergency landing would be easier and 
faster. It also meant 1549 would be landing into the wind, 
which could have assisted the pilot in making a safe landing.
    I called Teterboro and explained the situation. The 
controller at Teterboro reacted quickly, and prepared Runway 1 
for the emergency landing. I then instructed the captain to 
turn right to a heading of 280 to land Runway 1. The captain 
replied, "We can't do it."
    I replied immediately, "Which runway would you like at 
Teterboro?" The captain replied, "We are going to be in the 
Hudson." I asked him to repeat himself, even though I heard him 
just fine. I simply could not wrap my mind around those words. 
People do not survive landings on the Hudson River, and I 
thought it was his own death sentence. I believed at that 
moment I was going to be the last person to talk to anyone on 
that plane alive.
    I then lost radio contact with 1549, and the target 
disappeared from my radar screen as he dropped below the tops 
of the New York skyscrapers. I was in shock. I was sure the 
plane had gone down. Less than a minute later, 1549 flickered 
back onto my radar scope. The aircraft was at a very low 
altitude, but its return to radar coverage meant there was a 
possibility 1549 had regained use of one of its engines. 
Grasping at that tiny glimmer of hope, I told 1549 that it 
could land Newark, 7 miles away, on Runway 29, but I received 
no response. I then lost radar contact again, this time for 
good.
    I was relieved from my position a few moments later, as 
soon as it was possible. I was in no position to continue to 
work air traffic. It was the lowest low I have ever felt.
    I wanted to talk to my wife, but I knew if I tried to speak 
or even heard her voice I would completely fall apart. I 
settled for a hasty text message: "Had a crash. I am not okay. 
Can't talk now." When I got home, she told me she thought that 
I was in a car accident. Truth was, I felt like I had been hit 
by a bus.
    It took 6 hours before I could leave the facility. I had to 
review the tapes, fill out paperwork, and make an official 
statement. It may sound strange, but for me the hardest, most 
traumatic part of the entire event was when it was over. During 
the emergency itself I was hyper-focused. I had no choice but 
to think and act quickly and remain calm. But when it was over, 
it hit me hard. It felt like hours before I learned about the 
heroic water landing Captain Sullenberger and his crew had 
managed.
    Even after I learned the truth, I could not shake the image 
of tragedy in my mind. Every time I saw the survivors on 
television, I imagined grieving widows. It has taken over a 
month for me to be able to see that I did a good job. I was 
flexible and responsive; I listened to what the pilot said and 
made sure to give him the tools that he needed. I stayed calm 
and in control.
    I returned to work this week. And while it may take some 
time for me to regain my old confidence, I know I will get 
there.
    I would like to end by personally recognizing the captain 
and crew of Flight 1549 for their professionalism, skill, and 
heroic efforts that day. I would like to recognize the 
professionalism of the other controllers who helped clear the 
skies and the runways for 1549, as well as the engineers who 
helped ensure that the aircraft itself could survive landing in 
the Hudson, and that those inside would be safe. Finally, I 
want to thank my wife Regina. She has been my rock these past 
few weeks, as she always has and always will be. I couldn't 
have survived this without her.
    Thank you, Mr. Chairman. I am prepared to answer any 
questions you might have.
    Mr. Costello. We thank you, Mr. Harten.
    The Chair now recognizes Mr. Sullenberger.
    I would like you to respond to a few questions from the 
Chair, if you would.
    Mr. Sullenberger. Yes, Mr. Chairman.
    Mr. Costello. As Mr. Harten just walked us through his 
experience from the moment that he knew that you were in 
trouble, I wonder if you would do the same for the Committee 
members as well, from the moment that you realized that you had 
a problem, and walk us through the events that took place until 
you landed in the Hudson.
    Mr. Sullenberger. Yes, of course.
    First, Patrick, I want to say I am grateful for your 
assistance that day and since. And this is the first time I 
have heard the detail of your experience, and I am greatly 
touched by it.
    It was, as Patrick said, a completely unremarkable flight. 
It was First Officer Skiles' turn to fly the airplane. We had 
been alternating legs. The takeoff and initial departure were 
normal, up until the point when the wind screening was filled 
by birds. We saw them just a matter of seconds before impact, 
with no time to react.
    At the point of impact, we heard the thumps of the birds 
striking the aircraft. It was obvious that they were large, and 
there were many of them. I immediately began to feel 
vibrations, abnormal, rough vibrations coming from both 
engines. I began to hear loud, abnormal noises coming from the 
engines, indicating severe damage. And I quickly began to smell 
in the cabin's circulated air what I have experienced before, 
and that is a burned bird smell going through the engines.
    After a few seconds, we had a nearly complete, immediate, 
bilaterally symmetrical loss of thrust that I had never 
experienced before. I knew immediately that the situation was 
dire. At that point, I thought the best plan was for me to fly, 
since I had the greater experience in this particular aircraft 
type, and that the division of duties was for Mr. Skiles to run 
the checklist, since he had so recently been through training 
on the airplane and knew the checklist intimately, which is 
what we did.
    I said, "My aircraft," and took control; and following the 
correct protocol, Jeff immediately said, "Your aircraft." At 
that point, I lowered the nose to maintain and attain a safe 
flying speed, and Jeff immediately turned to the appropriate 
checklist, and began working valiantly and desperately--
ultimately vainly--to restart the engines.
    We quickly assessed the situation. We quickly considered 
and then rejected the nearest runway alternatives as being 
unattainable. I knew that I could not afford to choose 
unwisely, that the cost for attempting to land on a runway I 
could not quite make could well be catastrophic not only for 
those on board, but for everyone on the ground.
    It was clear early on that the only place that was large 
enough, wide enough, smooth enough to land a jet airliner was 
the Hudson; and we began to plan the landing and take the 
appropriate steps to make it happen. And I would just reiterate 
what Jeff has said, that it was a team effort from start to 
finish. It required a highly experienced, highly trained crew 
of pilots and flight attendants. It took highly experienced 
travelers in the cabin, business travelers who had traveled 
many times before, taking the lead from our flight attendants, 
who remained calm and professional at all times, acted 
admirably, and of course the first responders in New York.
    By the time I left the airplane there were already boats 
around the aircraft rescuing passengers.
    Mr. Costello. First Officer Skiles, would you like to add 
anything?
    Mr. Skiles. Well, it was 3 minutes of my life, not very 
long, and I do have a--not that great a memory of it, to start 
with. But certainly I think that Captain Sullenberger covered 
all the high points and the low points.
    Thank you.
    Mr. Costello. Thank you.
    For the flight attendants, we heard what took place from 
the air traffic control tower, and we have heard what took 
place from the cockpit. I wonder if you might tell us, as soon 
as you discovered that there was a problem, what you did; and 
walk us through it. Whoever would like to lead.
    Ms. Welsh, would you like to go?
    Ms. Welsh. Well, like I said before, we heard a thump, 
which was the birds, which we didn't know at that time. And it 
was kind of like hitting something in the air. And then in the 
back, where I was, the smell was pretty strong. And I thought, 
for some reason, there might have been an electrical fire. That 
was just my guess at the moment.
    So I got up and I looked for Sheila, saw Sheila up front, 
but our interphones didn't work. So really, in that time span, 
I thought, well, we probably lost an engine, and we were going 
to go back and land at LaGuardia and that would be that. So I 
got back in my seat, and not long after that I heard, "Brace 
for impact." And--you want me to go on with that?
    Mr. Costello. Please.
    Ms. Welsh. Well, you know, it is words you don't want to 
hear as a flight attendant, but I didn't know, I think Jeff 
said it was 3 minutes. I have always wanted to know from start 
to finish, because at some moments it seemed long and at some 
moments it seemed like a snap.
    But it seemed--after the "Brace for impact," it seemed 
quick to me that we did hit, which I assumed we were on the 
ground for some reason. I thought we attempted to go back to 
LaGuardia--I might have just thought this in my head, and I 
don't know why--and we were on the runway and didn't make it.
    So after getting out of my seat and going to the--because 
my doors are behind me--after going to the door and looking out 
and seeing water--Whoa, like I said, that was the biggest shock 
ever. So I gave it one second thought, Can I get one--because 
we landed in the back, but we still weren't down; like we saw 
the plane--I thought, Do I have one second to get a raft out of 
here? And that water was rising.
    And I thought, No. And as I turned around, passengers 
shoved by me and just started grabbing everything on the door 
and cracked the door. So that is when the water started coming 
in rapidly.
    And I went back to try to close it, and then it was coming 
in just--I don't know the time, but it was just rising like 
crazy. I went back again with both hands and tried to close it, 
but it just wasn't going to happen, and turned around and saw 
there were so many people.
    I assumed for some reason, like I said before, that the 
whole plane was even. So I thought we were all going to be 
under that water. It is just how I thought.
    And then, at the last minute, I just got this burst and 
started--people were in shock like I was, or had accepted that 
this was pretty much it, because the water was just about 
there. And I just went crazy and started ordering people to go 
to the wings, and having them climb--we never would have all 
made it down that aisle.
    So I started having people that were able to climb over the 
seats, I said, "Just make your goal get to the wings; that is 
our only hope. Get to the wings. We have seconds." So the few 
people that were in front of me, looking back, they had to be 
in shock like I was for a second there with that water.
    And then I screamed and snapped them out of it, and got up 
to the wings, and like I said before, I thought, might make it. 
So after everybody there, it might have been one or two people 
that followed me, I saw Sheila and went up to the 1-R door and 
went out on the raft.
    And that is when I realized I was injured, because I didn't 
know until then.
    Mr. Costello. And can you describe for the Members of the 
Committee your injury, what happened to you?
    Ms. Welsh. Well, I don't know. But--I mean, I didn't 
realize until I got to the front door that I felt the pain and 
everything. I obviously walked into something or--I had heard 
that something had come up from the floor. But my guess is that 
I did it after entering that ice water, because I wouldn't have 
felt it.
    So I have no idea what--I couldn't even begin to guess what 
I did it on. It is like an angle iron, it is like an L-shape, 
so I can't even imagine.
    Mr. Costello. If I can ask the same question of you, Ms. 
Dail.
    Ms. Dail. When we were sitting in our jump seats and heard 
the thump, Donna and I had just a moment to whisper. I 
whispered to her, "What was that?" And she said, "I think it 
was a bird strike." I never experienced such a bird strike. The 
few moments between then, it was eerily quiet. I smelled the 
smell. There was a little bit of smoke when I looked down the 
aisleway. But actually, we just sat there waiting. We knew the 
guys were busy up front. At some point they would tell us what 
to do. And when we heard the command, "Brace for impact," our 
training just kicked in and we began our commands.
    And then, when we hit the water, we just followed through 
with what we yearly--we have a yearly recurrent training. And I 
was due for mine the following week, and had my workbook filled 
out; so I had looked over the information. And Donna had 
recurrent the next week after me.
    But the training, I only have to say, the recurrent 
training that I have gone through for 28 years prepared me to 
do what I did.
    Mr. Costello. Ms. Dent?
    Ms. Dent. We did have a very different experience up front. 
It was much calmer, I think, and very civilized. When we 
realized that--when we heard the "Brace for impact," as Sheila 
said, we began our commands. And when we heard the evacuation 
command, we started yelling our evacuation commands. But at 
that point we didn't know we were in water.
    So when I assessed, I looked out my window and saw that 
there was movement, I thought we were still on land. And I 
thought we were moving. So I yelled for Sheila to wait, not to 
open her door yet.
    And then I yelled, "We are in water," and opened my door, 
inflated my slide, and just started evacuating the passengers.
    Mr. Costello. We thank you. And we will have--I will have 
other questions, and I am sure other Committee Members will as 
well.
    The Chair now recognizes the Ranking Member of the Full 
Committee who has joined us, Mr. Mica.
    Mr. Mica. Thank you, Mr. Costello, for holding this 
hearing. Mr. Petri also. And I see Mr. Oberstar, our Chairman, 
who has joined us.
    I had a few questions.
    First of all, the whole country, you know, is enamored with 
you all, the crew, and air traffic controllers who did such a 
great job. So I join in praising you. We are very proud of you.
    And it is a picture of success and the way things should 
have worked. And the good Lord gave us a great day and a lot of 
people we can be proud of. So I thank you in that regard.
    But our job, too, is to look at what happened, and also see 
if we can improve on what occurred. And the questions I ask are 
in that vein, to--hopefully, a positive vein.
    First of all, last night I was Googling somebody, a little 
thing that somebody said that ``Mica is as crazy as a bed 
bug,'' that this wasn't birds, it was defective engines.
    Captain Sullenberger, First Officer, do either of you 
know--first of all, what was the plane, the aircraft?
    Mr. Sullenberger. The aircraft type was an Airbus 320.
    Mr. Mica. Was there any defect that you are aware of in the 
engines of any of those aircraft, Captain or First Officer?
    Mr. Sullenberger. No.
    Mr. Skiles. No.
    Mr. Mica. Nothing was related to an engine failure. And it 
was interesting the first time I heard you say, Captain, that 
you saw not just one bird, you saw many birds. You said, "many 
birds," Captain?
    Mr. Sullenberger. Yes. When I first noticed the birds, they 
completely covered our view out the front window.
    Mr. Mica. Did you see many birds, First Officer?
    Mr. Skiles. Yeah, I probably saw them a little bit before 
Sully. And there was a large number of birds all flying in a 
line, as you would normally see geese fly.
    Mr. Mica. Okay. He gave you permission to go to 1500. When 
you hit the birds, were you at 2000 or something? What was 
the--do you know the estimated altitude that the strike 
occurred?
    Mr. Sullenberger. Our initial altitude clearance was to 
5,000. We were given clearance to 15,000.
    Mr. Mica. Okay. I am sorry.
    I heard 2900 feet at the bird strike. Is that about right?
    Mr. Sullenberger. I have not seen the data from the flight 
data recorder.
    Mr. Mica. You were above 1500, though?
    Mr. Sullenberger. I think that that range of 2900 to 3000 
is probably a good place to start.
    Mr. Mica. Okay. Let me talk to the air traffic controller, 
Mr. Harten.
    You were at a panel, and you had a radar screen that could 
detect, you could detect any obstacles to flight and also 
aircraft, correct?
    Mr. Harten. Yeah. I could see aircraft.
    Mr. Mica. Was that the latest technology or was it old 
technology?
    Mr. Harten. I mean the radar scopes we work with, I think 
we have had for about 8 years, 7 years.
    Mr. Mica. Adequate. Now, I am told that sometimes air 
traffic controllers dumb down the equipment, the radar 
equipment to eliminate some of the clutter. Do you know if the 
equipment that you had was dumbed down in any way to eliminate 
any of the clutter?
    Mr. Harten. It was not. I am not familiar--what do you mean 
"dumbed down"?
    Mr. Mica. Well, that you couldn't detect certain objects. 
What they do is, there is clutter on the screen; and I am 
told----
    Mr. Harten. Well, what we can do is, we can adjust our 
filter limits. And that will get rid of some data blocks----
    Mr. Mica. Right.
    Mr. Harten. --transponders, altitude, low aircraft----
    Mr. Mica. Had you adjusted your equipment in any way to----
    Mr. Harten. Well, working LaGuardia departure, we look from 
the ground up to----
    Mr. Mica. Are you able to ever detect--now, these are, I am 
told, Canadian geese, 12 to 24 pounds. And I am told by the 
crew that there was a flock. Is that normally detectable?
    Mr. Harten. Not often. Sometimes you can see a primary 
target on the scope with the large----
    Mr. Mica. NTSB has seen the records of the--and they now 
have the records.
    Mr. Harten. My scope, yes.
    Mr. Mica. Do those records also record the level at which 
any clutter is removed from the screen?
    Mr. Harten. Yes, they would have that information.
    Mr. Mica. Okay. So that is with them now.
    There was not any avian hazard detection equipment at that 
site; is that right?
    Mr. Harten. No, there is not.
    Mr. Mica. Are you aware of the equipment that they do have 
that the Air Force and NASA use?
    Mr. Harten. No, I am not familiar with that.
    Mr. Mica. You aren't. Okay. Because I do know that there is 
equipment. You are aware of that.
    Have you ever been able to detect on any radar screen any 
avian activity?
    Mr. Harten. On occasion, if it is a large enough flock of 
birds, and they are at an altitude where we can see them, we 
will get what is called a primary target. And that is just 
basically a dot on the radar scope. There is no way of telling 
if that is a bird or not.
    Mr. Mica. And you did not see that that day?
    Mr. Harten. There was nothing on the scope.
    Mr. Mica. We will find out what the screens--or what the 
radar detection was set for. Now, as an air traffic controller, 
too, you have a limited number of options to send them out of 
LaGuardia. And you are aware that for some 30 years, we still 
have the same routes out of the New York airspace. Correct?
    Mr. Harten. Yes.
    Mr. Mica. The last 18 years, we have been trying to 
redesign that. So the choices for Sullenberger to take that 
U.S. Air aircraft out of LaGuardia are basically what is shown 
up there--the color. Is that correct? Those are your choices of 
airspace exit for him?
    Mr. Harten. That looks like a 360 heading off 4 runway 
heading and 155 heading.
    Mr. Mica. But those are your choices?
    Mr. Harten. Those are coordinated ahead of time with all 
four departures.
    Mr. Mica. Are you aware that we are trying to enhance some 
of the departure by redesign of the airspace--put that one up 
there--which would give you a few more choices. You don't have 
these choices now, do you?
    Mr. Harten. No, we do not. I can tell you right now, some 
of those wouldn't work.
    Just being honest.
    Mr. Mica. But my point is you are limited in your choices 
of departure. Is that correct?
    Mr. Harten. Yes.
    Mr. Mica. And that the design of the airspace is still 
limited to what was done some nearly three decades ago. And my 
point is that we haven't redesigned that airspace in some--we 
have been working on it 18 years, and we still don't have it.
    So you have limited choices, you have limited technology. I 
am just trying to look at what our options are to make certain 
that this doesn't happen again, or that you have the tools to 
make certain that you have options. Okay.
    Mr. Harten. Okay.
    Mr. Mica. Let me just ask you one more question for 
everyone and I will be through. Experience is a key to 
everything here. Go down again and tell me again how much 
experience for the record each one of you had.
    Captain.
    Mr. Sullenberger. I learned to fly 42 years ago, but at the 
airline, 29 years. I have just about 20,000 hours of flying.
    Mr. Mica. First Officer.
    Mr. Skiles. I have 32 years of flying, and I have slightly 
more than 20,000 flying hours.
    Mr. Mica. Ms. Dail.
    Ms. Dail. Twenty-nine years.
    Mr. Mica. Ms. Dent.
    Ms. Dent. Twenty-six years.
    Mr. Mica. Ms. Welch.
    Ms. Welch. Thirty-eight years.
    Mr. Mica. Lastly, Harten.
    Mr. Harten. I have 10 years' experience.
    Mr. Mica. One final question for you. And this is important 
because we get a lot of criticism about the aging or 
demographics of our air traffic controllers. You are fairly 
young, but you have got good experience. Were there backup 
personnel at your experience that had adequate experience?
    Mr. Harten. Yeah, there were experienced controllers around 
me, yes. There wasn't a backup for my position. There wasn't 
someone standing behind me.
    Mr. Mica. Again, we have to know, were you properly staffed 
and backed up?
    Mr. Harten. I am not sure what the staffing was that day, 
to be honest with you.
    Mr. Mica. But when you went off, some junior guy that was 
just wet around the ears was going to take over. That would not 
be happening, right?
    Mr. Harten. We have one guy that has only about a year and 
a half experience.
    Mr. Mica. Would there be a possibility of him taking over?
    Mr. Harten. Taking over for me? During the event?
    Mr. Mica. At any point.
    Mr. Harten. He could have worked departure.
    Mr. Mica. That is what I need to know because our air 
traffic controllers express concern about the backup that they 
have, and I need to know who was there and how we man those 
important positions with qualified personnel.
    Thank you all very much. I appreciate it. Yield back.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the distinguished Chairman of the Full Committee, 
Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman. To the witnesses 
before us, you represent the very best of aviation. Lindbergh 
would be proud of you. Your management of the immediate impact 
and the aftermath of that impact, and the tragedy, are 
testimonial. They are exemplary of what we expect and what 
America sets forth for the world in excellence in aviation 
service. Captain Sullenberger, I think you've got jet fuel in 
your veins.
    I think the lesson of this experience is not which route, 
what we are doing with the east coast departure and arrivals, 
routing systems can be a very complicated thing and go on for 
many years; whether we can do it or not, whether it impacts 
people's lives and livelihoods or not. The lesson is CRM: Crew 
Resource Management.
    The communication between captain and first officer, the 
instant, to me, it's like the Harlem Globetrotters. The ball 
goes in the air. Somebody else knows what to do with it. That 
is what you did. Immediately you knew what to do. You didn't 
haul out a manual in the cabin, you didn't haul out a manual 
and look at things. You knew exactly what to do.
    In the cab, the air traffic control tower, you knew what to 
do. Your calm, steady voice offering options, offering choices 
for the flight deck crew, is what we expect the best of air 
traffic control.
    It wasn't always so. In 1985, in January, at Reno, Nevada, 
a Lockheed Electra took off with 94 passengers on board. In a 
minute and four seconds after departure, the crew heard a 
thunk, thunk. Thunk, thunk. Both the captain and first officer 
began troubleshooting. They forgot to fly the aircraft. It 
crashed. Ninety-three people died. One 14-year old lad 
survived.
    The NTSB investigation found that the proximate cause of 
the thunk was an open door on the hull of the aircraft. An 
access door, just a little one like this, that hadn't closed. 
It was flapping back and forth. But the immediate cause was the 
failure of the crew to fly the aircraft. And they began this 
very long, intense renewal of heightened attention to the 
communication in the flight deck and in the cabin.
    A few years later, in Sioux City, Iowa, a United DC 10 was 
in route, and suddenly it too lost all power. Lost all control 
of all wing surfaces, all control surfaces. As it turned out, 
the disk in the tail engine just blew out, just gave out, and 
flew right through and severed the hydraulic lines, and landed 
in a cornfield, as it turned out later.
    But there too the flight deck crew were communicating with 
each other constantly and using their combined experience and 
resources and understanding and knowledge of the aircraft. Each 
had a role, each played that role, each carried it forward and 
saved 110 lives. There were fatalities on that tragic instant. 
And time and again we find the training.
    There was another incident, however, in December of 1993, 
actually, in my district, between my hometown and our nearby 
community, Hibbing, a Metroliner of Mesaba Airlines, en route 
to a landing in Hibbing, with 16 passengers on board, and the 
captain realized he was too high on approach, and made an 
excessively rapid descent.
    As it turned out, the first officer was much junior, with 
less skill, less experience, less training, and in the flight 
data recorder reported his concern about the rate of descent. 
But this pilot had a reputation of being an imperious person, 
and his right-hand partner was frequently intimidated from 
raising a voice, raising a concern. That was a failure of CRM.
    All persons died as that aircraft descended way too fast, 
came down below the level needed for approach and ran slam into 
an abandoned mine dump that we call manmade mountains in our 
area.
    We have all this wonderful technology aboard aircrafts; 
Mode C transponders and GPS and GPWS and TCAS and ground 
proximity warning systems. But, in the end, people fly the 
aircraft.
    You had the right pairing. A very seasoned first officer, 
very seasoned pilot; pilot in command and first officer. And it 
worked beautifully.
    The cabin crew. Next time, I suspect you will trip any 
passenger who tries to get up and run to the door. But, again, 
performing professionally. And our air traffic control system.
    I wonder, Mr. Harten, were you in an air traffic control 
facility on September 11?
    Mr. Harten. I was employed then, but I wasn't working that 
day. I had the day off.
    Mr. Oberstar. I have talked with controller after 
controller who said when they finally got all 5,430 aircraft 
out of the sky and looked at that blank screen, the hair stood 
on the back of their necks. Every one of them has had the same 
feeling.
    There is something about this aviation. You know, you have 
everyday 2 million of our fellow citizens in the air somewhere 
in the continental United States. And you are responsible for 
their lives. And when there is nothing on that screen, it sends 
shivers up your back because you have that attachment, that 
care. That is the lesson of the survival of this incident.
    Keep it up. Thank you for your example, for your courage, 
and for your professionalism, all of you.
    Mr. Costello. Thank you, Mr. Chairman.
    The Chair now recognizes the Ranking Member of the 
Subcommittee, Mr. Petri.
    Mr. Petri. Thank you very much. I really just have a couple 
of questions. I wonder if any of you have had experience on 
previous occasions ditching aircraft or close calls and evasive 
action. You talked of all the years you have been flying. 
Certainly, I guess part of pilot training is to train for 
unanticipated emergencies. Could you discuss that a little bit? 
Clearly, your experience is a big asset. But what does that 
mean?
    Mr. Sullenberger. I think the essence of the airline 
piloting profession is preparation, experience, and training, 
education. It's an interesting mix of confidence and caution, 
and it's working very hard never to be surprised. We have to be 
aware. We have to be alert and vigilant and ready at any moment 
to meet some ultimate test that we never know if or when will 
ever occur.
    This crew was tested on January 15. We didn't see it 
coming, but we used our experience and our skill and those of 
our colleagues and the first responders to make it a successful 
outcome.
    Mr. Petri. I have sort of a slightly unrelated question. 
Being from Wisconsin, I represent a place called the Horicon 
Marsh. We have an enormous number of geese. They used to 
migrate. They are called Canadian geese. They are supposed to 
go down south. Unfortunately, in recent time, for a variety of 
reasons, including hatching these geese and releasing the 
hatchlings into the bog to supplemental it, thinking they would 
migrate with the others. They don't. They don't know how to 
migrate, many of them. They stay around.
    Do you think as part of this we should be thinking about 
clearing the ones that don't migrate off the land? They are a 
mess for aviation, they are bad for golf courses and 
recreation, as long as these creatures are turning into 
enormous pests and they are a huge danger to life, or is that 
overkill from the goose's point of view? Any of you have any 
comment on that? Have you seen--is this a really rare 
experience or are these creatures around a constant threat? 
They are pretty big. They are not just small birds.
    Mr. Skiles. As you know, sir, I am from Wisconsin as well, 
and I drive by the Horicon Marsh several times a year on 
camping trips up to the Dorr County area. You are right, you do 
see an awful lot of geese in that area. But you see geese 
everywhere. There are so many of them. They seem to really have 
exploded in population lately.
    But I guess personally, I still do think that this was an 
extremely rare event that may never recur. Just the chance of 
hitting them, them being in just the wrong place and us just 
being in the wrong place. I think it is just a fluke. This may 
never recur again, even if we do nothing about them. Frankly, 
there are so many of them, I don't know what we would do at 
this point.
    Mr. Petri. I think, finally, I would be remiss if I didn't 
give you an opportunity. Several of you in your prepared 
statements talked about the pressure that the airline industry 
has been on since 9/11, and really before, since deregulation, 
and the implications for the profession of being a pilot and 
for the airlines and so on. Do you have any particular 
suggestions or areas you think we should be looking on to help 
increase the chances that we will maintain professionalism in 
the industry, going forward, which, as you pointed out, has 
been--is under pressure right now.
    Mr. Skiles. Well, the two things that I would suggest is, 
as I mentioned in my statement, contract negotiations seem to 
go on absolutely indefinitely, and of course the bankruptcies 
have just decimated the contracts that we used to have. What we 
really need is to have a finite timetable within the National 
Mediation Board process so that they cannot just go on 
interminably the way they do now, to allow us to rebuild these 
professions, to make it something that people will aspire to 
and that people want to do again.
    The other suggestion I might have is the Railway Labor Act 
itself, which we have to work under, actually protects 
railroads much better than it does airlines. In our case, while 
we have all the disadvantages of the negotiated process within 
the Railway Labor Act, we do not have the protections to our 
contracts that the Railway Labor Act does provide for 
railroads, in that it is very easy just to abrogate our 
contracts as aviation professionals. If we were working for a 
railroad, they would actually have to negotiate any kind of 
changes to the contracts, even under the Railway Labor Act.
    Mr. Costello. The Chair thanks the Ranking Member, and now 
recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. I want to thank Mr. 
Harten for your testimony. It seems to me that you describe 
some of the symptoms of post-traumatic stress. And I would 
guess that all the crew may have experienced some of the same 
things, although maybe in different degrees.
    As one who worked as a musician most of my professional 
adult life before I came to Congress, I am used to the term or 
the saying, "Don't quit your day job." But I am shocked to 
learn that the captain and first officer are both working a 
second job so that you can keep flying. I am just shocked, is 
all I can say.
    First Officer Skiles, what you just talked about in terms 
of the railroad agreement giving the pilots the disadvantages 
but not the advantages in terms of negotiation and mediation, 
et cetera, I think is something that we will probably want to 
look at on this Subcommittee, and rectify. And we have had 
representatives, by the way, of Pilots Association, the Flight 
Attendants Association, and the Mechanics Union, the Air 
Traffic Controllers Association, even the attorneys for the FAA 
come before this Subcommittee and talk about the difficulty 
they have had in the last 8 years working with the FAA during 
that time. I trust and hope that this year we will see a new 
management that will be working in a more cooperative manner 
with all of you and your colleagues.
    Captain Sullenberger, based on your experience, are there 
any aircraft design issues that could be reexamined perhaps to 
make water landings safer or more feasible?
    Mr. Sullenberger. Yes, Congressman. There are many aircraft 
that fly domestically that are not required to have life vests 
on board, or life rafts, and instead rely upon seat cushions. 
Had we had one of those airplanes and not an airplane equipped 
for over water use, this would have been a much more 
challenging situation.
    Mr. Hall. Thank you. And I assume based on the 
conversations here, and other ones you probably already had, 
that there will be at least a regulatory or perhaps an airline 
decision to routinely instruct passengers not to open the aft 
decks. That is in the case of a water landing.
    And, Captain Skiles, in your testimony--or in U.S. Airways 
testimony, it states that you performed the dual engine failure 
emergency checklist in an attempt to restore thrust to the 
engines. Could you take us through some of the items on that 
checklist?
    Mr. Skiles. There are a number of items you have to go 
through. It is actually designed more for doing at high 
altitude. If you just had a dual flameout for whatever reason, 
maybe you flew through volcanic ash or you had a fuel 
interruption. So it is actually very long, very lengthy, and of 
course, given the time frame, we were only able to get about to 
the bottom of the first page. But the items that we did 
accomplish all basically to ensure that we had electrical and 
hydraulic power to the aircraft even while we are in a glide. 
Actually, we have an engine master switch which resets some of 
the computers. It is a lot like your computer at home. When it 
starts to act up, you reboot it. That is essentially what you 
are doing there. You are trying to reboot the engine because it 
is actually controlled by computers.
    But that is about as far as we got before we actually 
performed the ditching.
    Mr. Hall. Have either you or Captain Sullenberger been in 
the cockpit of flights that had bird strikes previously that 
were survivable?
    Mr. Skiles. Well, a bird strike is rare, but it is not a 
particularly unusual circumstance. I would imagine that just 
about any pilot that has flown for any length of time has 
encountered bird strikes. But normally it is a seagull or small 
bird that maybe doesn't even dent the air frame. It might 
just--the mechanic might just come out and clean the blood off 
the nose. That is normally the kind of bird strikes that you 
have.
    Mr. Hall. But geese in both engines are unlikely to leave 
the turbines functioning.
    Mr. Skiles. That is something for the NTSB to determine in 
their investigation. But it is certainly a bigger bird than I 
have ever hit before.
    Mr. Hall. Thank you, once again, and congratulations. The 
country is very grateful to you all. I yield back.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. The first question, I 
assume you get training on how to ditch an airplane. Is that 
correct? Is that in a simulator? Was it helpful to you? I 
assume you got it and I assume it was helpful.
    Mr. Sullenberger. The pilots and flight attendants are 
taught in ditching. And we do have a procedure in our manuals 
to follow. What was unique about this situation were the many 
things we had to confront, the many problems in such a short 
period of time. But I think ditching would be a difficult thing 
to practice in the current level of simulation that is 
available to us in the pilot flight simulators.
    Mr. Ehlers. Oh, really. Does it describe to you what angle 
you should try to hit the water at?
    Mr. Sullenberger. There is guidance on those kind of 
parameters, yes.
    Mr. Ehlers. So you are well-trained on that as well. You 
mentioned the problem with the airlines. The labor agreement 
and so forth. And Congress doesn't normally like to get in the 
middle of labor management battles, but it has always seemed to 
me particularly inappropriate to have the airline personnel 
represented under a law that is designed for railroads. Do you 
think your union would be in favor or in support of attempting 
to write a specific law for aviation, just as many, many years 
ago a specific law for railroads was written? You were just 
stuck in there because railroads move people, planes move 
people. Therefore, you are both in transportation. It didn't 
make sense to me. What are your comments on that?
    Mr. Sullenberger. What we need is a level playing field. 
What we need is an impetus for both sides to negotiate in good 
faith in a reasonable timetable. My concern is for the safety 
and the integrity of the air travel system. That we continue to 
be able to attract and to keep highly experienced, highly 
qualified people.
    Mr. Ehlers. Part of the problem--in fact, I think a major 
part of the problem nowadays is the sorry state of the 
airlines. And we had a small meeting with the CEOs of the major 
airlines a few months ago and I said, I just don't understand. 
I mean, your planes are so full that I now have to make 
reservations 2 and 3 weeks in advance to get the flights I 
want. And every plane I am in is filled. Gas prices or fuel 
prices are back down. And you are still losing money.
    So there is something wrong with the business model that 
says you are as busy as you can be, and you should be making 
money. And you are losing money. I really think that is a good 
share of the problem. That given the present state of 
competition, or lack of competition because of restrictions on 
the airlines. If they don't get a better business model, if 
they are not able to make sufficient funds, that is going to 
reflect on your salaries because airlines can't give you 
salaries that they can't afford to pay.
    Do you have any words of wisdom in how you think the 
airlines should run their business? Not so much the business 
aspect of it, but what can they do to be more competitive and 
to make money, which is their principal objective?
    Mr. Sullenberger. I can only give testimony from my direct 
personal experience. However, I have in this airline industry, 
I have 29 years of direct personal experience, and it is the 
direct personal experience not only of myself but of my family. 
As I said in my remarks, my decision to remain in this 
profession that I have loved and had a passion for my entire 
working life has come at a great kind of financial cost for me 
and my family.
    What I would say in answer to your question is that to 
those who say that they are paying market wages because they 
still fill the pilot seats, that if these trends continue, we 
probably will find people to do this job. It just won't be the 
same ones doing it now.
    Mr. Ehlers. I think that highlights the problem. I am 
concerned, as you expressed the concern earlier, about the 
younger, inexperienced pilots. And I remember they have to 
start somewhere. But I fly, because we fly so much in our work, 
I fly on a number of planes that are piloted by quite young 
people. I sometimes joke that it looks like they barely got out 
of high school.
    I really want them to have a job, but I do get a little 
nervous about flying with someone who has that much experience. 
And the Buffalo Continental experience illustrates that. It is 
too early to tell exactly what happened, but it does look as if 
the pilot may have gotten rattled, and forgot.
    When I learned to fly, one thing I never forgot, the first 
thing you always do is fly the airplane. And it appears he may 
have lost that in the concern about the icing. I hope it is 
not--I don't want to blame the pilot. But if that is true, that 
is a good example of how lack of experience could result in a 
disaster situation.
    I don't ask you to comment on that, but this is my 
editorializing. We really have to have adequate training and 
high standards and, above all, they have to remember how to fly 
the airplane, no matter what happens.
    The last question is: Is there something we can do about 
the bird instead of just detecting them. I have noted, for 
example, I fly out of National a lot very frequently, and I am 
driving down there I see the Canadian geese eating grass in the 
park at the end of the runway. That, to me, is a highly 
dangerous situation. In your pilot circles are you talking 
about any solution to the bird problem?
    Mr. Sullenberger. Many of the warnings that we get now 
about bird activity are routine, are general. They are not 
specific. I look forward to the industry as a whole working 
together with technical experts to find ways to detect and to 
give pilots more specific warnings about specific groups of 
birds at specific areas.
    The other issue is some birds are resident, some are 
migratory. As Jeff has testified, the migratory birds can be 
anywhere. They may be large.
    As to what happened in our experience, I think it is 
reasonable for those in the industry to reevaluate the engine 
certification standards which currently require that during 
certification testing only an engine be capable of sustaining 
an impact of a single 4-pound bird and not producing useful 
thrust but simply not having an uncontained failure or catching 
on fire.
    Mr. Ehlers. Okay. Good point. In my area, we worry more 
about deer strikes than bird strikes. But that is perhaps a 
little unusual.
    One last comment to the air traffic control specialist. I 
listened several times to the entire transcript of what 
happened, and you did a very commendable job. It was 
interesting to me to hear. You sounded totally unflappable. And 
I was impressed by the way you handled all the other planes in 
between your calls to this flight. And so I commend you for 
that.
    Mr. Harten. Thank you very much.
    Mr. Costello. The Chair thanks the gentleman from Michigan, 
and now recognizes the gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman. I echo the sentiments 
of my colleagues, and thank you for putting together this fine 
hearing. Again, thank you for coming and providing your 
insights.
    I guess I take from this hearing two grave concerns. Really 
one is the overall condition of the airline industry itself and 
the notion that we can lose people who are so experienced. And 
then the issue on the birds itself.
    Let's talk about the birds first because I know that there 
was also the case in Louisiana where a helicopter recently went 
down--I think it was in Louisiana--because of the impact with 
the birds. How serious is this problem, in your opinion, 
Captain Sullenberger?
    Mr. Sullenberger. As Jeff stated, anyone who has been in 
the aviation business for a while has had a bird strike. But, 
typically, they are a single bird, a small bird, that strikes 
the airplane in a noncritical area, and often does no damage. 
This was a very different situation. This was atypical, but the 
risk needs to be adequately assessed.
    Mr. McMahon. Was it atypical, and we are not bird experts 
here, but just from your visual observations, do they normally 
avoid the airplane or was this unusual because there was 
contact with such a large flock?
    Mr. Sullenberger. As Jeff said, I think what made this 
unusual is the fact that our flight path intersected the birds' 
flight path and that there were so many large birds that 
happened to strike the entire aircraft, including both engines.
    Mr. McMahon. Okay. And on the industry itself, it is very 
alarming. And I really thank you, all of you, for coming in and 
sort of taking a very public stand on this very important 
issue. Do you see, because I know you work as a consultant as 
well--how imminent do you think the problem is? Is it critical 
today? Do we have the level of experienced piloting and 
staffing for our airplanes today, and is this a problem that 
will come down the road? Or is it at a critical mass now?
    Mr. Skiles. The first thing, I think it was critical 5 
years ago. I think if you look at the state of the airline 
industry today, it needs to be rebuilt immediately. It is not 
something that is going to happen down the road. I mean, 
certainly it will get worse as experienced pilots retire. But 
it is something that is occurring right now, today.
    Mr. McMahon. And you both mentioned in your testimony that 
the deterioration began right after 2001, 9/11. Is that because 
of the dramatic loss in air traffic volume at that time and the 
impact on the industry, or were there other factors?
    Mr. Sullenberger. I think this began earlier. I think it 
really began in 1978 with the deregulation of the airlines. 
That set the stage for all of us to follow. Certainly, it has 
been greatly exacerbated by the perfect storm of events since 
September 11. SARS, the economic downturns, the bankruptcies, 
the mergers. The bankruptcies, I think, were used by some as a 
fishing expedition to get what they could not get in normal 
times.
    Mr. McMahon. Again, thank you all very much for what you 
have done and coming here today and presenting your testimony. 
Thank you.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Tennessee, the former Chairman of 
this Subcommittee, Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing. I don't intend to take much time.
    I do want to join with my other colleagues and commend the 
crew. And I happen to have had three constituents from my 
district in east Tennessee who were on the plane. And there was 
a very lengthy article about the two women from my district in 
this past Sunday's Knoxville News Sentinel. One woman was on 
the very last row and one woman was on the 13th row. That 
article brought home to me how scary this event was even after 
you had ditched because they described waist high water and 
some problems in attempting to get off the airplane.
    So certainly you all did a great job. And, Captain 
Sullenberger, they even had an article several weeks ago about 
a distant cousin of yours from east Tennessee. So maybe a lot 
of people are claiming relationship to you now. I don't know.
    Mr. Sullenberger. There is a branch of our family that was 
in Tennessee, and I have been reacquainted with some distant 
relatives whom I had not seen since a very early age.
    Mr. Duncan. Well, I was going to ask what the odds were of 
something like this happening. Again, Mr. Petri covered that. 
And First Officer Skiles said it was just a real fluke. I 
didn't know whether this was something that was a billion to 1 
or once in 500 years or whatever. Apparently, it was extremely, 
extremely unusual. I do wonder.
    We have been given these statistics about 7,500 bird 
strikes reported in 2007, and the number since 1990. Is this a 
growing problem, in your minds, or has this been going on 
pretty much at the level that it is at now, and are there any 
airports where it is worse than others?
    Mr. Skiles. One of the reasons that you are seeing that it 
appears to be a growing problem is the reporting requirements 
for bird strikes have increased dramatically just in recent 
years. Last week though, I did actually tour my local airport. 
And the airport manager took me around. And I had no idea what 
they actually have to go through to combat birds and bird 
strikes on their airport.
    I am no expert on it. You are certainly going to have 
experts who are going to testify. But, in many ways, the 
airports are somewhat hamstrung by a lot of regulations; 
environmental regulations, for instance, that prevent them from 
handling these specific instances.
    For instance, the airport manager where I live, they 
extended the runway. Where they extended it happened to be in a 
little bit of a marshy area. And they were required by Federal 
regulations to actually recreate another wetland right next to 
one of the runways because they had to recreate it on their 
property. And, of course, wetlands actually attract birds.
    It is a much more difficult problem too because every bird 
species seems to have their own thing that they don't like. For 
instance, some don't like sound. But, for instance, seagulls, 
they don't care about sound. The little propane cannons that 
they use at airports don't affect them at all. But what 
apparently affects seagulls mostly is if you shoot one of them, 
because if they see a dead seagull, they disappear.
    And, in some areas of the country, for instance, I believe 
California was the one that the airport manager mentioned where 
I live, it is actually illegal to shoot any kind of bird. They 
have to either trap them and take them someplace else or use 
some other sort of mitigation techniques.
    So I am sure you are going to get testimony on that. But 
perhaps some of the rules do need to be refined around airports 
to give them more latitude.
    Mr. Duncan. So it is not a one-size-fits-all situation 
then. Apparently some of the environmental rules and 
regulations need to be looked at in regard to this situation. 
Since this has happened and you have heard all that you have 
heard about this, do most of you feel that most of the airports 
in the country are doing everything they can to combat this, or 
do you think this is something that they need to do a lot more 
about?
    Mr. Sullenberger. I think one thing is that most airports 
in this country are locally controlled and operated. There are, 
of course, Federal standards. But it is really up to each 
individual airport operator to determine whether or not and to 
what extent and how they will control the birds that happen to 
be in that particular area.
    Mr. Duncan. All right. Thank you very much, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Ohio, Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman. Thank you for 
hosting this Committee. Let me just say to this panel who has 
assembled here how proud I am of you. I am just in awe of the 
professionalism and conduct that you have displayed both in the 
cockpit and in the air traffic control tower to what you have 
done in the events that have led after.
    Captain Sullenberger, you and I share some things in 
common. I am an Air Force-trained pilot. I have 15 years in the 
military, 13 in aviation, and they engrained from the 
beginning, Maintain aircraft control, analyze the situation, 
take appropriate action. I think what you and your crew did was 
exemplary. So I just wanted to tell you how proud I am. And the 
poise that you showed in the tower I think is exemplary as 
well.
    I have many of my buddies who fly for the airlines, and 
they speak the same language that you do about the uncertainty, 
both as a career, and the uncertainty of whether their job is 
going to be there. And it is just tragic because I have flown 
all over the world and I can tell you that the professionalism 
that we have before this panel, Mr. Chairman, and what we have 
in our control towers, is exemplary. I have been around the 
world. I can speak to that as a C-130 pilot.
    In our research here they tell us that research and NTSB 
recommendations have led to airlines designed to be more 
resilient to disasters. I know on the Airbus that they have a 
ditching switch. And from your testimony here, you suggested 
that you were only able because of time and altitude and the 
likelihood of a ditching that you were only able to get partly 
through the dual engine failure checklist.
    My question is: When this airplane landed in the water and 
you weren't able to perform that checklist, did you have the 
situational awareness to close the ditching switch that closes 
all the holds below the waterline? Can you speak to how that 
transpired?
    Mr. Sullenberger. The answer is there was not time. We did 
not get that far in the checklist. The bottom line is, in this 
case it was irrelevant because the ditching push button, while 
theoretically it is a good idea, and I understand why the 
engineers and designers included it in the airplane, it only is 
designed to close some small openings that are normally open in 
the bottom of the airplane.
    Upon first contact with the water, larger openings occurred 
in the airplane much larger than any of the vents that the 
ditching push button was designed to close. It wouldn't have 
mattered even if we had gotten through it in this case.
    Mr. Boccieri. Do you think the design of the Airbus lent 
itself to staying afloat for as long as it did?
    Mr. Sullenberger. I cannot speak to that. I would hesitate 
to speculate. I can only say that we are very happy that it 
stayed afloat as long as it did.
    Mr. Boccieri. We are too. I can tell you that your 
passengers are very proud of the efforts that you gave there. I 
want to follow up with one other thing here. The industry as a 
whole is going through a flux and, with the raising of the 
retirement age to 65 now, and the quality of the training that 
you go through, it is important that we understand that at some 
point those Baby Boomers who are flying right now are not going 
to be there. And is it appropriate to require more training 
with simulation?
    I remember going through our simulator flights and 
experiencing every aircraft mechanical emergency that you can 
ever experience. Is the training adequate, from your 
perspective as a flight check pilot, to what we give to those 
with lower number of hours?
    Mr. Sullenberger. It is important as one generation gives 
up the profession and hands it over to the next that the body 
of knowledge of what we do and why we do it continues. There 
must be a continuity. You have to know the history, you have to 
know about the seminal accidents that Chairman Oberstar talked 
about, and others, that are really the reasons for much of what 
we do. You have to know not just what to do, but why we do it, 
so that when you are in a time critical situation and there 
isn't time to use every checklist or consult every reference, 
that you know what clearly you must do. You have a very clear 
idea about what your priorities are and, in the limited time 
you have available to you, what steps you must take.
    Mr. Boccieri. Thank you. I will close by saying that in our 
reports also they say that the flight attendants and cabin crew 
are trained within 90 seconds to evacuate the aircraft. I know 
those seconds probably seemed longer than that. But you truly 
were able to help this be a success story. So I want to thank 
you again.
    I am proud of what you stand for, what you have done both 
in the cockpit and outside of it. I think you have been 
extremely professional and humble. And, thank you.
    I yield back my time, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. I too just want to 
express my congratulations to all of you and collective 
gratitude on behalf of this Committee and the American people 
for what you did on that day.
    If you will indulge me on a personal moment. I took a great 
deal, almost a vicarious thrill in what you all did because my 
late uncle, for whom I was named, was a senior captain at 
United Airlines. His name was Charles C. Dent.
    And he was the first pilot to land a plane, a commercial 
plane, on experimental foam in the 1950's during a crisis. It 
was quite an ordeal for him, as was his crew, at the time. He 
had to jettison his fuel over the Pacific Ocean. Took him about 
an hour or two to land and do a belly landing because the 
landing gear wouldn't come down. He did it successfully.
    He was momentarily famous and the actor Jimmy Stewart 
actually did a tape recording of this whole event. It is on 
video. I have seen it. I would be happy to share it with the 
Committee at some point. It was really quite a thrill for him. 
He passed away a few years ago. And it is ironic a Dent was on 
the plane too on this occasion.
    I just wanted to share that with you. It just gave me a 
real thrill to see what you were able to do, all of you were 
able to do, with that belly landing on the Hudson River. It 
made me think of his experience back in the 1950's. He was 
asked at the time by the tower, How much foam do you want down 
on the runway? Nobody had ever done this before with 
passengers. And he said, Well, whatever is appropriate for 
occasion. So that is what happened. Everybody walked off.
    My only question for Captain Sullenberger is this: When he 
got off the plane, the Chairman of United Airlines handed him a 
$5,000 check in the 1950's, which was a lot of money back then. 
Did anybody hand you a check, or any of the crew?
    Mr. Sullenberger. Interestingly, US Airways gave everyone, 
passengers and crew, $5,000 very shortly after the incident to 
replace personal items lost. And we appreciate that.
    Mr. Dent. Well, he got $5,000 just for landing the plane. 
So I just wanted to share that with you. But, thank you again 
for all that you have done. Again, it was just a remarkable 
experience you probably would rather not have participated in 
but, nevertheless, just an extraordinary occasion and 
achievement and you should all be very proud of what you did.
    Thank you. I yield back my time.
    Mr. Costello. The Chair recognizes the gentleman, and now 
recognizes the gentleman from Missouri, Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and all of you. 
Again, I just want to pile on additional thanks, and just 
really remarkable actions that we have heard about today and 
witnessed in the media. Your discussion about the team approach 
certainly is evident throughout the description we hear. But, 
Captain Sullenberger, you were certainly the captain of this 
team, and I think your calm and cool hand in this situation has 
certainly emanated throughout your team.
    I, again, just want to congratulate all of you. This really 
was a testament to your training, a model of professionalism, 
and for those 150 people that were on that plane, you certainly 
made a difference in their lives, and all of the families of 
those folks, yours included, certainly is remarkable.
    I want to ask Captain Sullenberger, if you were talking to 
a group of pilots here today, what would be your advice in 
terms of lessons learned from this flight; anything that could 
be done better, different, or continued, in terms of your 
training for instances like this.
    Mr. Sullenberger. Well, I wouldn't presume to talk to my 
colleagues in an instructional fashion. I think I would just 
share my experiences and just say that flying has been a 
passion for me literally since I was 5 years old. I have always 
paid attention, I have always devoted a great deal of care to 
it. It matters to me. And it has been a source of great 
satisfaction for me to continue to improve and try to excel.
    I would also say that I feel a great obligation, since we 
have been chosen by circumstances temporarily to represent the 
profession, to represent them in a way that will not disappoint 
them.
    Mr. Carnahan. I don't think you have disappointed anyone. I 
think certainly anyone who is in your profession, and certainly 
a new generation of people thinking about going into the 
profession, certainly will be inspired by your actions. Thank 
you all very much.
    Mr. Costello. The Chair thanks the gentleman.
    Two quick questions. Captain Sullenberger, you heard me 
mention in my opening statement about the technology that is 
now being used at Seattle-Tacoma International Airport in 
conjunction with the University of Illinois, and they are using 
an enhanced radar system to better deal with detection. Are you 
familiar with that technology?
    Mr. Sullenberger. I had not heard about that until I read 
about it after the event of January 15.
    Mr. Costello. Very good.
    Mr. Harten, let me ask you. Obviously, it is very clear 
that the experience that all of you, the entire crew and you as 
an air traffic control specialist, experience paid off. I would 
hate to think, and I said this in an earlier hearing, what the 
outcome would have been had someone with an entry level 
experience as First Officer Skiles said earlier about 300 hours 
versus 3,000 hours of experience. And the same thing with the 
flight attendants. I would hate to think of what may have 
happened in this situation with a pilot and first officer and 
flight attendants that were new to the job, so to speak.
    You heard Mr. Mica mention earlier that there have been 
concerns about the rapid retirement of the most experienced air 
traffic controllers. We have had hearings on it. We have talked 
about fatigue as a factor, we talked about--I have said I was 
in a tower recently in Florida just a few months ago and, I 
forget how many, but I think there were, out of the 10 
controllers there, the most experienced one at the time when I 
was there had 1 year of experience. The rest of them had less 
than a year.
    I just want you, if you would, to explain from that day 
your position on what experience meant to you versus someone 
who may have been in the tower for the first day, or less than 
a year.
    Mr. Harten. In that case, experience was everything. I 
mean, I have 10 years of working busy traffic. And just the 
experience of working that traffic for so long gives me the 
tools to be able to react to a situation the way I did. You 
can't substitute experience in a case like that.
    Mr. Costello. The Chair recognizes the Ranking Member, Mr. 
Petri, for a question.
    Mr. Petri. I forgot to ask this of Captain Sullenberger. 
The news stories indicated, and I guess other reports, that 
when this was all over, before leaving, you walked up and down 
the aisle a couple of times to make sure that everything was in 
order. Is that part of protocol? What was going through your 
mind? Why did you do that?
    Mr. Sullenberger. I had the time. And I could leave no 
possibility that there would be anybody left behind.
    Mr. Petri. We thank you for setting a fine example. Thank 
you all.
    Mr. Costello. Let me, again, thank all of you on our first 
panel for your testimony, for being here today. Obviously, I 
won't repeat what has been said many times. But we thank you 
all for what you did and how you reacted superbly. Your, 
obviously, training, your experience paid off not only for you 
but for the 150 people that were on that flight that day.
    So we are very proud of you and we appreciate everything 
that you have done and that you continue to do to keep the 
flying public safe every day.
    That concludes the testimony from the first panel. We 
appreciate your being here, and your entire statements will be 
entered into the record. Thank you very much.
    The Chair now will ask the second panel to come forward. 
And I will introduce the panel as the first panel is leaving. 
If you would please take your Chairs as soon as you can.
    The Honorable Robert Sumwalt, III, Member of the National 
Transportation Safety Board, accompanied by Mr. Tom Haueter, 
the Director of Office of Aviation Safety with the NTSB; Ms. 
Margaret Gilligan, Associate Administrator for Aviation Safety 
with the FAA; Captain John Carey, Chairman, Accident and 
Investigation Committee, U.S. Air Line Pilots Association; Ms. 
Candace Kolander, Coordinator, Air Safety, Health, and 
Security, Association of Flight Attendants-CWA, AFL-CIO; 
Captain John Prater, President of the Air Line Pilots 
Association, International; Mr. Mark Reis, Managing Director, 
Seattle-Tacoma International Airport, Board Member, Airports 
Council International of North America; Mr. John Ostrom, 
Chairman, Bird Strike Committee-USA, Manager, Airside 
Operations, Minneapolis-St. Paul International Airport, 
accompanied by Dr. Richard Dolbeer.

    STATEMENT OF HON. ROBERT SUMWALT, III, MEMBER, NATIONAL 
   TRANSPORTATION SAFETY BOARD, ACCOMPANIED BY TOM HAUETER, 
 DIRECTOR, OFFICE OF AVIATION SAFETY, NATIONAL TRANSPORTATION 
 SAFETY BOARD; MARGARET GILLIGAN, ASSOCIATE ADMINISTRATOR FOR 
AVIATION SAFETY, FEDERAL AVIATION ADMINISTRATION; CAPTAIN JOHN 
CAREY, CHAIRMAN, ACCIDENT AND INVESTIGATION COMMITTEE, U.S. AIR 
  LINE PILOTS ASSOCIATION; CANDACE KOLANDER, COORDINATOR, AIR 
SAFETY, HEALTH, AND SECURITY, ASSOCIATION OF FLIGHT ATTENDANTS-
 CWA, AFL-CIO; CAPTAIN JOHN PRATER, PRESIDENT, AIR LINE PILOTS 
   ASSOCIATION, INTERNATIONAL; MARK REIS, MANAGING DIRECTOR, 
 SEATTLE-TACOMA INTERNATIONAL AIRPORT, BOARD MEMBER, AIRPORTS 
COUNCIL INTERNATIONAL OF NORTH AMERICA; JOHN OSTROM, CHAIRMAN, 
    BIRD STRIKE COMMITTEE-USA, MANAGER, AIRSIDE OPERATIONS, 
  MINNEAPOLIS-ST. PAUL INTERNATIONAL AIRPORT, ACCOMPANIED BY 
 RICHARD DOLBEER, CHAIRMAN, (1997-2008) BIRD STRIKE COMMITTEE-
                              USA

    Mr. Costello. The Chair will now recognize the second panel 
for their testimony. Again, we appreciate you being here for 
this important hearing.
    We look forward to hearing your testimony. We will operate 
under the 5-minute rule, which means that your entire statement 
will be entered into the record. We would ask that each of you 
try and summarize your testimony within 5 minutes or less.
    The Chair now recognizes Mr. Robert Sumwalt, III, who is a 
member of the National Transportation Safety Board.
    Mr. Sumwalt. Well, it is still morning. Good morning, 
Chairman Costello, Ranking Member Petri, and Members of the 
Subcommittee. Thank you for the opportunity to present 
testimony on behalf of the NTSB. I would like to give a brief 
summary of the Safety Board's investigative activities thus far 
of the US Airways Flight 1549 accident.
    The investigation is still in its early stages, and we are 
continuing to gather factual information regarding the 
circumstances of this accident.
    Our goal is to learn from this accident so that we can 
prevent future accidents, and to further improve aviation 
safety. Information from the flight data recorder revealed that 
the elapsed time from takeoff to the bird strikes was a little 
over 1-1/2 minutes, and the time from the bird strikes to 
touchdown in the water was about 3-1/2 minutes. The bird 
strikes occurred at an altitude of about 2,750 feet mean sea 
level. Additionally, the flight data recorder revealed no 
anomalies in the operation of the two CFM56 engines until the 
time of the bird strikes.
    Under the Safety Board's supervision, the engines were 
disassembled at the CFM manufacturing facility in Cincinnati. 
Bird remains, including feathers, were found in both engines; 
and with the assistance of the U.S. Department of Agriculture 
and the Smithsonian Institution, a determination was made that 
the bird remains were that of the Canada goose.
    In spite of positive determination of species, we may never 
be able to determine the precise number of birds ingested. Most 
often, engine bird ingestion, does not result in the loss of 
thrust. Even less likely are multiple engine failures.
    Our investigation so far has uncovered issues that 
complicated the evacuation effort. For example, the cargo 
compartment structure had been pushed up through the rear floor 
of the airplane, and the aft pressure bulkhead of the fuselage 
was compromised, thus allowing water to enter the rear cabin 
area. This caused the fuselage to float in a tail-down 
attitude, which precluded the use of the two aft slide rafts.
    As part of the continuing investigation, the Safety Board 
will conduct a fact-finding public hearing of this accident. 
Topic areas to be examined will include turbine engine bird 
ingestion capability, the joint JAA and FAA certification of 
the Airbus A320 regarding water landings, the effectiveness of 
bird detection mitigation efforts at or near airports, and the 
current state of training at airlines regarding ditching 
scenarios.
    In addition to the US Airways accident, the Safety Board is 
currently investigating or assisting in the investigation of 
three accidents where bird strikes may have occurred. For 
example, in January of this year, a Sikorsky S-76 helicopter 
crashed near Morgan City, Louisiana. That accident claimed 
eight lives and caused one serious injury. At this time, the 
Safety Board's investigation is focusing on a possible bird 
strike.
    The Board is also assisting the Italian government in their 
investigation of a Ryanair Boeing B-737-800 that crashed in 
Italy in November of 2008. Fortunately, there were no 
fatalities or injuries. Additionally, the Safety Board is 
investigating the crash of a Cessna Citation that struck birds 
near Oklahoma City on March 4th of last year, resulting in five 
fatalities.
    Since 1973, the Safety Board has issued 32 recommendations 
to the FAA and other government agencies regarding bird 
strikes, bird ingestion by aircraft engines, and bird hazard 
mitigation. I want to underscore that the Safety Board is very 
concerned with the issue of bird strikes and related hazards. 
We are eager to learn more about these issues in our efforts to 
help improve the safety of air transportation. From a personal 
perspective, that of a former airline captain at US Airways 
with more than 32 years of flying experience, and one who flew 
for about 1,300 hours in the Airbus aircraft, I am extremely 
interested in seeing that the Safety Board follows through with 
a thorough and comprehensive investigation.
    Mr. Chairman, this completes my testimony, and I will be 
glad to answer questions at the appropriate time.
    Mr. Costello. The Chair thanks you for your testimony, and 
now recognizes Mr. Haueter.
    Okay. The Chair now recognizes Ms. Margaret Gilligan.
    Ms. Gilligan. Thank you, Chairman Costello, Congressman 
Petri, and Members of the Subcommittee. We thank you for 
including FAA in the discussion of the events surrounding US 
Airways Flight 1549's emergency landing in the Hudson River.
    The circumstances of Flight 1549 were simply unprecedented, 
and we, just as the rest of the world, are awed by the quick 
thinking and consummate professionalism of the entire crew, as 
well as the air traffic controllers involved. But before going 
on, I must note that as we celebrate the outcome of Flight 
1549, Mr. Chairman, as you stated, we also mourn the tragic 
loss of life on Colgan Air Flight 3407 in Buffalo. We are fully 
supporting the ongoing NTSB investigation, and I want to assure 
you we will keep you and your staff posted on our progress.
    NTSB is also still investigating Flight 1549, so I just 
want to touch on FAA's efforts in three areas: first, our work 
with airports to reduce the probability of bird strikes; our 
standard for aircraft design to increase survivability in 
crashes; and our requirements for flight crew training when 
encountering emergency situations.
    Our statistics on bird strikes indicate that the closer the 
aircraft is to the runway, the higher the risk of a bird 
strike. About 73 percent of all reported strikes occur at the 
airport, from the airport surface up to 500 feet above the 
ground. As you have just heard from Member Sumwalt, Flight 1549 
had reached an altitude of about 2,700 feet when it encountered 
a flock of Canada geese. Only about 5 percent of reported 
strikes occur between 2,000 and 3,000 feet.
    Since the data indicate the greatest risks for strikes 
occur at the airport, the FAA has focused its bird strike 
mitigation efforts in that area. We require commercial service 
airports to conduct wildlife hazard assessment and, if 
necessary, prepare a Wildlife Hazard Management Plan to reduce 
the possibility of bird strikes in and around the airports. We 
work closely with the U.S. Department of Agriculture and the 
Smithsonian to help airports with wildlife mitigation efforts.
    For the aircraft, we have design requirements for flight 
into a flock of birds, for loss of engine power, and for 
emergency landings on land and in the water. What occurred on 
Flight 1549 indicates that in this emergency situation, all of 
our safety standards were met. The engines reacted exactly as 
was intended: They shut down, they remained intact, they did 
not shed any parts that might have damaged the aircraft or 
injured any of the passengers, they remained on the wing. After 
ditching, the aircraft floated as it was required, the exits 
remained available, and there was sufficient time for 
successful evacuation of everyone on board.
    In addition to our design requirements, we require airlines 
to develop and train on ditching procedures. Flight training 
includes reviewing the ditching checklist to acquaint crews 
with this rarely used procedure. And flight attendant training 
includes a hands-on drill to ensure the proper use of emergency 
flotation equipment. At US Air, they conduct initial flight 
attendant training in a pool to assure experience with rafts 
and flotation devices. All these efforts contributed to the 
extraordinary acts of this incredible crew.
    Captain Sullenberger's training, as noted by Congressman 
McMahon, enabled him to control the aircraft skillfully. First 
Officer Skiles's training, as Chairman Oberstar pointed out, 
assured that they worked as a team. And the incredible 
professionalism of Flight Attendants Welsh, Dent and Dail, made 
sure that everyone got out. But the fact remains that for all 
the training and technological advances we might make, the 
human element is where it can all fail or where it can astonish 
all of us, as it did in this case.
    Equally admirable is the work of Patrick Harten, the air 
traffic controller who communicated with Captain Sullenberger 
during those harrowing moments. He and the team at the New York 
TRACON and LaGuardia tower were a crucial part of this 
incredible story; and joining with controllers at the Teterboro 
tower, they did a great job of coordinating the emergency 
response notifications.
    This event proves what safety professionals in aviation 
have always known: It takes all of us--aircraft designers, 
airlines, pilots, flight attendants, airport managers, and yes, 
the Federal Government--to accomplish our outstanding safety 
record.
    Mr. Chairman, Members of the Committee, that concludes my 
remarks. I will be happy to answer any questions.
    Mr. Costello. Thank you, Ms. Gilligan.
    And now the Chair recognizes Captain Carey.
    Mr. Carey. Chairman Costello, Chairman Oberstar, Ranking 
Members Mica and Petri and Members of the Committee, thank you 
for the opportunity to testify before you this afternoon.
    Most importantly, I would like to acknowledge the crew of 
Flight 1549, whose bravery and heroics combined with 
exceptional airmanship in saving the lives of the passengers. 
This has given our country a chance to proudly celebrate their 
bold actions.
    They have also given us the opportunity to reflect on the 
current state of aviation safety. Because we are party to the 
ongoing NTSB investigation, we will not comment on specific 
areas that would compromise the investigation.
    The Safety Board, in our opinion, has put a very 
appropriate emphasis on this investigation, and we are pleased 
to be a party. The reason we are a party and the reason we are 
here today is to work toward preventing future accidents and to 
promote aviation safety.
    Airline pilots have a long tradition of safety advocacy. 
Captain Sullenberger is a prime example. It is one thing to 
talk about being a safety advocate, but airline pilots walk the 
walk. Pilot safety volunteers work tirelessly, while dues-
paying members reach into their pockets each month to support 
these ongoing safety activities. Even now, while working under 
bankruptcy era contracts, our pilots continue to fund these 
all-important safety projects. Each and every budget contains 
significant funding for safety. Nothing could be more 
gratifying than to see our colleagues from other flight crew 
unions here today.
    On the afternoon of January 15th, every airline pilot in 
the world put themselves in the cockpit of Flight 1549. We have 
all thought the ultimate: What would I do if I was at the 
controls that day? We all share the feelings.
    And in a very real way, Jeff and Sully have united us. 
Their professionalism in the cockpit, the poise that they have 
displayed during and after the event, and their personal 
demeanor has been an inspiration to every pilot.
    In all of the hangar flying that has taken place since this 
event, nobody has second-guessed the actions of our crew. Not 
many would predict a similar outcome had they been faced with 
the same dilemma, which is extremely unprecedented. Airline 
pilots are their own worst critics; however, this case is one 
where there was no training, and almost all agree that a 
successful outcome would be, at best, a long shot.
    Many things went into the successful outcome of Flight 
1549. Clearly, we had the vast experience of the flight deck 
that day. What is also evident is that the pilots and flight 
attendants, as individuals, are among the best and the 
brightest that our aviation society has to offer. In addition, 
our industry has built on many core safety principles, which 
continue to serve us well. This crew has embraced these 
principles, and successfully demonstrated them during Flight 
1549.
    Regarding crew experience, the industry contraction had an 
unintended positive effect. In our opinion, First Officer 
Jeffrey Skiles is a primary example. Having been with the 
airline in excess of 20 years and previously served as a 
captain, his presence on the flight deck significantly 
contributed to the successful outcome of Flight 1549. Due to 
attrition, however, this will not last. The greatest hope that 
we have of ensuring experience on the flight deck in the future 
is to promote and support a thriving airline industry.
    A successful airline industry is the most important factor 
in attracting and retaining qualified pilots. Competitive 
salaries and benefits are central to attracting and retaining a 
qualified pilot workforce. And Congress must also step up to 
ensure that pilot employee pensions are protected. By 
protecting their pensions, you ensure that new-hire pilots 
remain in the cockpits of our airliners andbecome the Captain 
Sullenbergers of the future. The Akaka amendment will go a long 
way toward attaining that goal.
    When we talk about core safety values, FAA oversight and 
regulation is critical. FAA leadership in developing regulatory 
guidance for the implementation of our Safety Management System 
has stagnated to some extent the advancement of the industry 
safety agenda. FAA needs to commission an aviation rulemaking 
committee to push the agenda forward. Although some in the 
industry have voluntarily begun programs, the standards are not 
uniform, and the quality can largely be debated. Without a pure 
SMS standard, such as those developed by the International 
Civil Aviation Organization, individual elements such as FOQA, 
ASAP, and AQP and LOSA are all administered differently, thus 
making airline safety irregular at best.
    Talking specifically about issues which may be germane to 
Flight 1549, bird mitigation seems to be a very elusive 
problem, especially the farther from the airport and the higher 
the altitude. Although much has already been done, further 
funding and study will be necessary to develop additional means 
for mitigation. An FAA interview of FAR 139 relating to 
wildlife hazards should be undertaken immediately.
    The failure of engines on Flight 1549 should prompt a fresh 
look at engine design and certification standards. Although the 
investigation is ongoing, it seems clear from the facts in the 
public domain that we have new data now by which to look at 
bird ingestion. FAA leadership will also be critical towards 
this effort.
    The evacuation and rescue phase was unprecedented. Although 
training in ditching is conducted, it has never been tested in 
this arena. To safely evacuate 155 people in this environment 
is a miracle in itself. The fact this was all done with two 
rear exits and two rafts unavailable made the success almost an 
impossibility.
    One thing is clear, the entire crew performed heroically 
throughout the entire evacuation and rescue. They are true 
heroes, and should be recognized as such. Additionally, all of 
those who operated the rescue watercraft and many who performed 
heroically and unselfishly on the Hudson River that day should 
also be recognized.
    Open questions remain on the survivability of the aircraft. 
Due to the actions and rapid response of all involved, the 
sustainability of the aircraft did not become a factor; 
however, the fact that the aircraft sank to the point where the 
rear exits and rafts were unusable and did not remain afloat 
very long after the rescue should be a concern for future 
accidents. Hopefully, the investigation will shed light on the 
issues as facts are discovered.
    As we further analyze the accident, we should realize our 
brief 5-minute testimony here today this afternoon has lasted 
as long as Flight 1549. With a normal takeoff and climb, we 
should realize how little time our pilots had to analyze the 
situation, make a critical decision on where to land in one of 
the most heavily populated areas of the world, all this while 
attempting to restart failed engines, prepare the aircraft for 
ditching, communicate with ATC and flight attendants, and 
prepare the passengers in the cabin.
    I would like to reiterate our commitment to enhancing 
aviation safety as this investigation goes forward, and I want 
to thank the Committee once again for the opportunity to 
testify today. Thank you.
    Mr. Costello. Thank you, Captain Carey.
    And the Chair now recognizes Ms. Kolander.
    Ms. Kolander. I want to thank the Committee for giving AFA 
the opportunity to testify today and giving our members from US 
Airways Flight 1549 the opportunity to tell their story. They 
are a true testament to the strength and resilience of all 
flight attendants that love this profession and take seriously 
our role as aviation safety professionals.
    At the same time, our thoughts and prayers go out to our 
fellow flight attendants and everyone affected by the 
Continental Connection Colgan Airways crash outside of Buffalo, 
New York. We are sadly reminded by this accident that our 
chosen career does pose a daily risk.
    For decades, AFA has been at the forefront of calling for 
and helping develop improvements that have been made to ensure 
that our workplace, the passenger aircraft cabin, is as safe as 
it can be. We have been an integral part in accident 
investigations going back to the mid-1950s and played a key 
role in developing recommendations from these investigations.
    Over the years, we have seen a number of changes in design 
standards that have improved survivability and decreased 
injuries. Among them are less flammable cabin materials, floor-
level emergency escape lights, and requirements for 16-g seats 
in all newly manufactured aircraft. My written testimony 
provides greater detail on these and other improvements, but 
many more still need to be done and need to be addressed, such 
as aircraft air quality and evacuation certification standards.
    The evacuation of Flight 1549 reminded everyone in the 
world in stunning fashion just exactly what the role and 
purpose of flight attendants are: in-flight safety 
professionals. On that day, each member of this senior crew did 
their jobs as trained; had they not done so, we would be 
talking about a completely different outcome.
    The aircraft landed at the right angle and was evacuated 
quickly, with minimal injuries. There were also a number of 
fortunate circumstances that day, such as the weather 
conditions, readily available watercraft to provide assistance, 
and time of day that lined up perfectly for a successful 
outcome.
    But we cannot always rely on luck. For that reason, we 
build redundant safety systems into the aircraft design to 
address potential failures, that is, if one of the safety 
protections fails, another layer of protections in the aircraft 
design will assist in mitigating continued failure or damage.
    When things start to fail in the cabin, we are left to rely 
solely on our training. Just because the crew did their jobs 
successfully in this case doesn't mean that we should stop 
building in additional operational layers in the flight 
attendant world to enhance safety.
    One of those layers is training. Training is crucial, just 
as crucial as redundant systems in design, yet we continue to 
look to enhance design. Why not look to enhance training?
    Years of cultural attitudes have often relegated flight 
attendants to nothing more than servers in the sky in the eyes 
of some. In fact, airline management is more than willing to 
spend money to add more and more customer service and sales-
type training for flight attendants, yet at the same time the 
trend has been to squeeze all the required emergency safety and 
security training into as little time in the classroom as 
possible. Flight attendant classroom emergency training hours 
have been reduced to the bare minimum allowed by the 
regulations.
    Now, we don't disagree with the duties associated with 
customer service, but our primary role on board that aircraft 
is safety. I think we can all agree it is more important for a 
flight attendant to know how to properly use safety equipment 
than a credit card swiping machine. But we have observed a 
disturbing trend in reductions in the amount of time spent on 
required emergency training. Currently, some of the regional 
airline operators are providing a 2-day recurrent training for 
their flight attendants.
    A regional airline typically has only one or two aircraft 
types, with similar configurations of the cabin, similar 
locations of emergency equipment, and similar procedures for 
emergency evacuation. A major operator, in contrast, has 
multiple aircraft types and multiple aircraft configurations, 
and is conducting only a 1-day recurrent training. And sadly 
enough, we just recently learned that one of our regional 
airlines is now planning to reduce their 2-day to a 1-day 
emergency training. That is because the majors are doing it, 
the regulations allow it, and the FAA approves it.
    Training is not our only concern. My written testimony 
highlights other areas; and in fact, one of those areas is 
fatigue. Our President, Pat Friend, has on several occasions 
addressed this Committee on that issue.
    In conclusion, we have been fortunate to see an overall 
decrease in commercial airline accident rates over the last few 
years, but we cannot rest on our laurels. We cannot stop 
researching new design standards that could further improve the 
accident survival rate. In addition, we must continue to 
evaluate and improve current operational procedures that would 
further enhance the ability of all crew members to fulfill 
their duties as safety professionals.
    Mr. Costello. Ms. Kolander, we appreciate your testimony.
    Now the Chair recognizes Captain Prater.
    Mr. Prater. Good morning, Chairman Costello, Ranking Member 
Petri. Thank you for inviting ALPA to testify before this 
Committee.
    Before I begin my remarks, I want to express our heartfelt 
sympathies to the families and friends of those lost so 
recently in the Continental Connection Colgan Flight 3407 
accident. It is ALPA's privilege to support them in their time 
of need.
    Over a span of 78 years, ALPA has been a part of nearly 
every significant safety and security improvement in the 
airline industry. Today, we run the largest nongovernmental 
aviation safety organization in the world, powered by hundreds 
of professional airline pilots. This morning we will explore 
the various safety issues associated with this accident, 
including the value of having well-trained professional men and 
women in the front seats of our airliners.
    It is clear that Captain Sullenberger dedicates his 
professional life to improving aviation safety, and we are 
proud to say that ALPA provided him with that safety structure 
for more than 20 years. Year after year, pilots who have 
performed routinely under critical conditions deflect the 
praise, just as the crew of US Airways Flight 1549 just did. We 
call it "doing our jobs." But this crew provided the aviation 
industry with the extraordinarily rare opportunity to analyze a 
relatively intact airliner that not only successfully landed on 
water, but also retained enough structural integrity to give 
all the occupants time to safely evacuate.
    We must learn everything we can from this ditching. ALPA 
urges the FAA, working with the NTSB investigation, to conduct 
a thorough analysis of the requirements for and capabilities of 
the various water survival provisions on airliners, from life 
jackets, which some airliners are removing, to landing in 
bodies of water other than the ocean, such as the Hudson River.
    As for the birds, you have to understand that the potential 
for bird strikes is something that every pilot is aware of, 
concerned about, and generally powerless to avoid, especially 
when faced with an entire flock of Canada geese on takeoff. 
Aircraft manufacturers have made great strides in designing 
airplanes to withstand bird strikes. Pilots train for wildlife 
avoidance. Airport operators administer Wildlife Hazard 
Management Plans and are testing new technologies that the FAA 
will develop into an airport Bird Strike Advisory System.
    We are trying to do our part, as well, by furthering our 
pilots' training with educational materials about wildlife 
avoidance techniques. In fact, ALPAis releasing a publication 
today which makes a number of recommendations on this issue. We 
will be sure to share it with all airline pilots, including the 
105-member International Federation of Air Line Pilots' 
Associations.
    In the end, however, the most important safety issue that 
emerged from this accident involves the human element--not the 
birds, not the airplane. After both engines failed, Captain 
Sullenberger, First Officer Skiles, and the flight attendants 
used their training and worked as a team to make split-second 
life-or-death decisions that literally determined the fate of 
155 souls. First Officers Derek Alter with Colgan Air and Susan 
O'Donnell with American Airlines, both jump-seating on this 
flight, also assisted in the evacuation. Derek even gave a 
passenger the shirt off his back. All professionals.
    The air traffic controllers calmly described the pilot's 
emergency landing options at various local airports. The ferry 
boat pilots and first responders' swift reaction enabled an 
almost immediate rescue from the frigid waters.
    The truth is that these individuals do this job day in and 
day out, 24-7, 365 days of the year, without recognition. 
Captain Sullenberger told Katie Couric that the most important 
words he has heard have been from his peers. He said, I have 
made them proud, that they feel pride in themselves, a pride in 
their profession they hadn't felt for many years, sometimes 
decades. His words stuck with all of us.
    See, we know that many of our airline pilots have lost 
pensions, their wages, medical benefits over the last 8 years. 
Furloughs, bankruptcies, near bankruptcies further damaged many 
of our contracts. The toll it has taken on our pilots and on 
the future of our industry and on its safety and security: You 
heard it from Captain Sullenberger and his crew earlier today.
    What troubles us most is that these conditions have eroded 
the pilot profession to the point where our union has raised 
legitimate questions about whether the industry is capable of 
hiring and retaining the next Captain Sullenberger. While the 
traveling public might appreciate cheap fares in a downturned 
economy, they need to know it comes with the hidden fees of 
losing quality pilots and making it nearly impossible to 
attract the next generation of pilots to fill the shoes of the 
crew members before them.
    The bottom line is that airline safety depends on many 
variables, but ultimately a passenger's life is in the hands of 
a highly qualified, trained, and experienced flight crew.
    As the President of the largest pilots' union in the world, 
I want to ensure that the kids that have been motivated by the 
actions of this crew and who want to enter aviation have the 
opportunity to follow in Sully's footsteps and do what we love 
to do for a decent living. As professional aviators who help 
keep this industry safe, together with the strong support of 
Congress and certainly this Committee, we are confident that we 
can turn their dreams into reality. Our success in this mission 
is vital to our Nation, our industry, and the safety of the 
traveling public.
    Thank you very much. I would be prepared to take any 
questions.
    Mr. Costello. The Chair thanks you, Captain Prater, and now 
recognizes Mr. Reis.
    Mr. Reis. Mr. Chairman and Ranking Member Petri, thank you 
for the opportunity to testify today on behalf of Airports 
Council International. I am the Managing Director of Seattle-
Tacoma International Airport and am here today to describe how 
airports work to reduce the risks of aircraft-wildlife strikes 
and to highlight the challenges we face in doing so.
    The Flight 1549 accident has dramatically highlighted the 
threat posed by wildlife strikes. The number of these strikes 
reported to the FAA has more than quadrupled, from 1,759 in 
1990 to a record high of 7,666 in 2007. FAA strike data also 
indicate that most strikes take place at or near airports.
    Airports are important partners with the Federal Aviation 
Administration and the Department of Agriculture's Animal and 
Plant Inspection Service and Wildlife Services in mitigating 
the risks that wildlife pose to aircraft operations. The FAA 
requires commercial service airports to undertake immediate 
action to alleviate wildlife hazards whenever they are 
detected.
    Airports are also required to have a qualified wildlife 
biologist conduct a wildlife hazard assessment in the event 
that an air carrier aircraft ingests wildlife into its engines, 
is substantially damaged by a wildlife strike, experiences 
multiple wildlife strikes, or if wildlife were observed in a 
manner that could cause an aircraft to experience one of those 
situations.
    Often times airports then develop a Wildlife Hazard 
Management Plan. These plans contain specific actions to 
minimize or eliminate wildlife hazards through habitat 
modifications, land use changes, and wildlife population 
management. The costs of wildlife management programs vary 
considerably from airport to airport, but some airports spend 
$250,000 or more per year on their programs. Funds from the 
Airport Improvement Program can be used to pay for a portion of 
the costs associated with habitat modification projects and 
wildlife management equipment; however, ongoing operating 
expenses associated with these programs are typically not 
eligible for Federal funding and are borne by the airports 
themselves.
    At Sea-Tac, we have had an extensive program to manage 
wildlife hazards in place for over 30 years. Sea-Tac is located 
in a highly urbanized area of western Washington, about 2 miles 
east of Puget Sound, and in one of North America's four major 
migratory bird flyways. Sea-Tac has implemented a number of 
measures to prevent wildlife strikes. For example, our 
landscaping includes only plants that do not produce fruits, 
nuts, or berries. Grass is kept at an optimal height to 
decrease wildlife use of the airfield for food and cover. We 
have also developed our own specialized grass mix that is 
wildlife resistant.
    We also actively work to harass and relocate problem 
species we find on the airport. The airport holds permits 
issued by the U.S. Fish and Wildlife Service that allows us to 
harass certain bird species, relocate raptors, and lethally 
remove individual migratory birds that lose their flight-fright 
response.
    We have incorporated wildlife management considerations 
into our wetland mitigation efforts and our storm water 
facility designs. For example, storm water ponds were designed 
with liners and netting, specifically to exclude wildlife and 
the aquatic vegetation that attracts it. We have recently 
created within a few hundred yards of our new runway 60 acres 
of wetlands that are specifically designed so as not to attract 
birds.
    In cooperation with researchers at the University of 
Illinois, we are exploring enhanced wildlife monitoring through 
the use of an avian radar system that was installed in August 
of 2007. This system acts like a powerful pair of eyes capable 
of seeing farther and higher than a human observer 24 hours a 
day. Data from the system is being used to help confirm that 
hazardous bird activity is not increasing near the airport's 
storm water ponds and to help identify wildlife trends. 
However, avian radar is not yet a silver-bullet solution that 
can be used by pilots and air traffic controllers to avoid 
birds in real time.
    I want to address three key challenges that airports face 
in our efforts to manage wildlife hazards: off-airport land 
use, conflicting and overlapping regulations, and funding.
    First, local zoning and permitting practices can result in 
the construction of wildlife attractants near airports. Our 
aviation system would benefit if airports had stronger 
mechanisms to control land uses in their vicinity when safety 
is at stake.
    Another issue involves complex and often contradictory 
Federal, State, and local laws and regulations regarding 
wildlife management and habitat protection. In some cases, 
State laws restrict the type of trapping methods that airport 
officials can use to manage wildlife and the use of lethal 
removal even when such actions are permitted under Federal law.
    In the case of Sacramento International Airport, the risk 
of criminal prosecution by airport officials resulted in the 
airport's ceasing certain wildlife removal and harassment 
activities. Airports in Florida have encountered a similar 
situation, and are working with the State legislature to remedy 
it.
    The Clean Water Act and National Environmental Policy Act 
requirements relating to wetlands can make it difficult, 
expensive, and time-consuming for airports to modify wildlife-
attracting wetlands on and near airports and to reduce wildlife 
strike risks. Providing simpler, streamlined permitting and 
environmental review processes when safety is at stake would 
help airports manage wildlife hazards more consistently with 
Federal aviation regulations.
    Finally, airports, especially smaller airports, need 
funding to implement and maintain effective wildlife management 
programs.
    Mr. Chairman, thank you for allowing me to share a little 
about airports' efforts to manage the risks associated with 
wildlife strikes. I am happy to answer any questions.
    Mr. Costello. The Chair thanks you for your testimony, and 
now recognizes Mr. Ostrom.
    Mr. Ostrom. Chairman Costello, Ranking Member Petri, and 
Members of the House Transportation and Infrastructure 
Subcommittee on Aviation, thank you for inviting me to 
participate in this hearing. My name is John Ostrom, and I am 
the Manager of Airside Operations for the Minneapolis-St. Paul 
International Airport. I am also proud to serve as the Chairman 
of Bird Strike Committee-USA, and I am testifying on behalf of 
this organization.
    Bird Strike Committee-USA was established in 1991 as an 
independent, nonprofit organization dedicated to providing 
leadership to the aviation wildlife hazard management 
community. Our focus is on the exchange of information, 
training and education, and the promotion of research and 
development to reduce the threat of wildlife hazards to 
aircraft operations.
    Bird Strike Committee-USA is directed by a steering 
committee comprised of representatives from the Department of 
Defense, the Federal Aviation Administration, the United States 
Department of Agriculture's Wildlife Services, the aviation 
industry, and U.S. airports.
    From the dawn of aviation to the present day, wildlife has 
posed a significant threat to aircraft and to the passengers 
they carry. However, the threat has significantly increased in 
recent years as a result of highly successful environmental 
programs during the past 40 years that have resulted in 
dramatic increases in populations of many bird species in North 
America that are hazardous to aircraft. For example, 24 of the 
36 largest bird species in North America have shown significant 
population increases in the past 30 years, and only three 
species have shown declines. The nonmigratory population of 
Canada geese has quadrupled from 1 million to 3.9 million birds 
in the USA from 1990 to 2008.
    Over the past 18 years, our organization and its members 
have worked diligently to bring awareness of this increasing 
problem to the forefront of the aviation industry. We have made 
significant progress, but have much still to do to realize our 
vision fully.
    On August 22, 2007, then Chairman of Bird Strike Committee-
USA, Dr. Richard Dolbeer, sent a letter to Vice Chairman Robert 
Sumwalt of the National Transportation Safety Board. In it, Dr. 
Dolbeer expressed grave concerns regarding continuing hazards 
to aviation from conflicts with wildlife, especially birds. We 
asked for a further review of National Transportation Safety 
Recommendations A-99-86 through -94 that were issued on 
November 19, 1999. In the letter we identified five significant 
strike events that occurred between September 2005 and June 
2007 that were at least as serious as those encounters which 
triggered the board's recommendation in 1999.
    We also acknowledge the work done by the Federal Aviation 
Administration to improve wildlife control at airports by the 
then-recent update of Title 14 Code of Federal Regulations Part 
139, which included increased guidance on how airport operators 
must mitigate wildlife hazards.
    Some of our specific concerns then and now are that there 
has never been a joint industry-government body established to 
address or even define the issue. There is no recognized metric 
or standard to judge whether conditions are improving or 
worsening, and there is no comprehensive industry-government 
plan to address the hazard to aircraft and human life.
    In 2008, Bird Strike Committee-USA reorganized to better 
address the changing needs of the aviation safety and wildlife 
management industries. As part of that effort, we identified 
seven goals. For the sake of brevity, I would like to focus on 
three of those goals, specifically 2, 6, and 7: No. 2, serve as 
the liaison to national and international bird strike 
committees and to other professional aviation and wildlife 
organizations; 6, promote the collection and analysis of 
accurate wildlife strike data for military and civil aviation 
in the USA as a foundation for, A, understanding the nature of 
strike hazards, B, developing effective and appropriate 
management programs, and C, evaluating the efficacy of 
management programs; goal 7, anticipate future wildlife 
challenges to aviation and provide leadership in promoting 
education, research and development of effective methods for 
reducing wildlife hazards to aviation.
    In conclusion, significantly reducing the aircraft wildlife 
strike will require a collaborative effort by all aviation 
stakeholders, with a major investment in education and research 
and development.
    Chairman Costello, Ranking Member Petri, and Members of the 
House Transportation and Infrastructure Subcommittee on 
Aviation, I would like to thank you again for allowing me the 
opportunity to testify about the work being done by the 
volunteers of Bird Strike Committee-USA to reduce the hazards 
to aviation posed by wildlife. We welcome the opportunity to 
continue working with you to ensure that our skies remain safe. 
Thank you.
    Mr. Costello. Thank you, Mr. Ostrom, for your testimony.
    Mr. Sumwalt, you indicated in your testimony that the 
engines on Flight 1549 on the aircraft exceed today's 
standards, but they still failed; and that is of great interest 
to the NTSB.
    I wonder if you might elaborate on that.
    Mr. Sumwalt. Well, thank you, Mr. Chairman.
    The certification standards are extremely complex and, as I 
mentioned in the testimony, we will have a public hearing 
regarding this accident. And certification standards will be 
something that we will look at to try and get our hands a 
little bit better around.
    Mr. Costello. And the reporting requirements, the FAA did 
not think that they should be mandatory, the NTSB does. Is that 
still the NTSB's position?
    Mr. Sumwalt. Let me take a look at that recommendation. Mr. 
Haueter has it right here.
    Mr. Haueter. That recommendation is "closed_unacceptable 
response," and so we are still looking at that issue. 
Obviously, from this accident, we will revisit it again.
    Mr. Costello. Very good.
    Ms. Kolander, you said--you touched on the training, what 
some airlines are doing, other airlines are cutting back.
    I wonder if you might elaborate and tell us just how much 
training should flight attendants and flight crews receive and 
how often should they receive in-service training?
    Ms. Kolander. I think right now the regulations, we do have 
to attend training every 12 months, which we are in agreement 
with. The difference now is flight attendants are not required 
under the regulation to have hands-on emergency training every 
12 months; and that is basically that they would use the 
emergency equipment.
    Currently, they are allowed every 24 months to do hands-on 
emergency equipment; and our concern is that the reality is, 
our environment is this emergency equipment. This is the most 
important tool that we have besides the training in the cabin. 
So we would like to see that addressed further.
    I can't necessarily say how many hours. The regulations 
currently stipulate hours, but what happens is, the regulations 
also allow the carrier to reduce those hours, using computer-
based training or distance education. While there are some 
merits to distance education or computer-based training, the 
reality is, those types of training are relevant only to facts. 
They are not a training that would teach psychomotor skills or 
performances; and those are things that are very important in 
the flight attendant world--real-life scenario training, not 
just taking a piece of equipment out and knowing the location, 
operation, and function, which is required in the regulation.
    Mr. Costello. Thank you.
    Captain Prater, you indicate in your testimony that you are 
unaware of any airline that provides wildlife avoidance 
training. Is that correct?
    Mr. Prater. No. In fact, there is not extensive--basically, 
it is limited to keep your landing lights on below 10,000 feet. 
It used to be, keep your radar on, under the assumption that 
maybe a beam of radar might send a signal. And then the last 
one is probably climb, because the birds will hopefully dive.
    Mr. Costello. In your opinion, what would your 
recommendation be to airlines as far as wildlife avoidance 
training? Should they in fact provide that type of training to 
pilots?
    Mr. Prater. I am not sure there is that much that can be 
done to train. It is like anything else, it is--if it hits a 
propeller, if it hits a windshield and breaks a windshield you 
are going to deal with the situation that is caused.
    I believe that the wildlife mitigation will help quite a 
bit. I think we need to concentrate our efforts on that, as 
well as the things we discussed several weeks ago. Even the 
introduction of NextGen that can keep airplanes out of those 
low altitude environments for long periods of time would 
certainly reduce the risk.
    Mr. Costello. Thank you.
    Last question: Mr. Reis, we talked about in my opening 
statement, and of course you touched on what you are doing at 
the Seattle-Tacoma International Airport in conjunction and 
cooperation with researchers at the University of Illinois as 
far as developing enhanced monitoring through the use of an 
avian radar system.
    One, at this stage, exactly where are we with the research, 
and is it working, and what is the cost of the equipment at 
this point?
    Mr. Reis. Well, it is working to the degree or if you 
measure working by, are we able to accurately track the birds? 
Absolutely.
    As one of the slides indicated, the slide was almost 
completely red over a 72-hour period, indicating the ability to 
track the fowl. We will be getting the first three reports from 
the researchers this June. They will be preliminary in nature 
and address the nature of the equipment, its effectiveness in 
mapping birds, how we can enhance bird detection, and analysis 
of the impacts of the storm water ponds around the airport in 
attracting birds.
    So I think we are in early stages of the research and would 
imagine it would be some years before we and the FAA and other 
airports would be ready to recommend any specific long-term use 
of it.
    Mr. Costello. Do you know the approximate cost of the 
equipment?
    Mr. Reis. We contributed $70,000 to the equipment. I 
believe, all told, it was about $2- or $300,000 to bring the 
equipment in and install it.
    Mr. Costello. Very good. Thank you.
    The Chair now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you, Mr. Chairman.
    Thank you all for your testimony. And I particularly want 
to thank Mr. Ostrom and your organization for your persistence 
and the important job of drawing people's attention to this 
growing threat.
    We came very close to losing 150 lives; and it ought to be 
a warning, because it won't be the last time this happens, and 
it is a growing threat. And we talk about all kinds of safety 
procedures on planes--and guides and so on and so forth--but if 
we are putting 24-pound balls of bone and flesh into engines, 
there is nothing that is going to save someone along the way 
from a serious fatal accident.
    So this should be greater priority to get these--these 
things are supposed to be migrating along about Thanksgiving or 
a little later, but unfortunately because people feed them, 
because birds have been injected into the flock that have been 
nested by human beings and never knew how to migrate, they are 
staying year 'round around airports and so on.
    I have a question really. I wonder if--especially if the 
people who are knowledgeable, especially knowledgeable about 
piloting, could comment on this.
    It is my impression that this is almost a miracle and that 
Captain Sullenberger, particularly--and everyone, of course, 
deserves plaudits. But talking about ditching an airplane--I 
mean, with some power, with some altitude, yes. But at 3,000 
feet with no power?
    And I have seen pictures of water landings. You say, Oh, 
well, that is great. If you catch a wing, it flips. And in this 
cold weather, everyone would have perished in all likelihood; 
even in regular weather, people probably would have perished.
    I wonder if you could just comment on the odds of this sort 
of thing and what was involved to pull this off successfully. 
He made it look almost easy, and quietly and coolly walked down 
the aisle twice to check, like the captain of a sinking ship. 
We forget they sometimes have hours; here is a matter of 2 
minutes.
    And maybe, Mr. Sumwalt, you would like to start. And I know 
Captain Carey and Captain Prater may have a comment as well.
    Mr. Sumwalt. Well, thank you.
    I certainly don't want to take anything away from the 
notion of a miracle, because it really is quite amazing that 
the outcome was as positive as it was. So there is a lot of 
that involved in this.
    I also do want to point out what appears to be the 
exceptional flying skills of the crew, as we heard from the 
first panel, in addition to scientific reasons, such as the 
greater crash survivability of the aircraft and the training 
that crews undergo. I think that the Board will find_as part of 
its investigation_that there were a number of factors that 
caused this accident to have a positive outcome.
    We at the Safety Board look forward to exploring those 
issues and producing a comprehensive product so that we can 
learn as much about what went right in this case as, 
oftentimes, what went wrong. Thank you.
    Mr. Carey. Thank you, Mr. Petri.
    I will tell you one other kudo for Captain Sullenberger. 
Not only did he make those last two swipes checking for any 
survivors or making sure he had his work complete, he went back 
into the cockpit as the airplane was sinking and took the 
logbook out, and--I mean, that is unheralded. As a matter of 
fact, when we saw him at the hospital and then back at the 
hotel, he handed it to me. It was dry as a bone.
    So this man's job never stopped. And I think that is just 
part of his experience, as I think the miracle equals the 
experience, because I think what he did was remarkable.
    And you know, when he talked about--he made a very candid 
comment prior, in other venues. And he said that he had been 
making deposits his entire career, that maybe 1 day he would 
have to make a withdrawal.
    And one time when we were talking to him during the 
investigation he made a comment that he had seen--when Mr. 
Costello was bringing up previous experiences, he had seen the 
cartwheeling of that 767 in the Philippines. And he was making 
mention that all he concentrated on is keeping those wings 
level.
    So not only did he go back in the cockpit and go get the 
logbook for us, which is remarkable, he had visions from his 
experience and vast things that he has become acquainted with 
in aviation and remembered the cartwheeling of that 767. All 
that came together and created the miracle.
    Thank you.
    Mr. Prater. Congressman, I would like to add a few words to 
that.
    I think all the words will never adequately give Captain 
Sullenberger and his crew the credit that they deserve. But 
each one of our passengers, just like each Congressman, 
Congresswoman that gets on the back of any one of our airplanes 
would expect their crew to do the same thing if it happened. 
Our professionalism is based upon sharing, openly sharing with 
other pilots, other unions; all of our administrators and our 
regulators share everything. The more we do that, the safer we 
make this industry. It is the foundation of our seniority 
systems that we use.
    When I was a young pilot 35 years ago and I would fly with 
a captain, he wasn't worried about me taking his job because he 
taught me too much. He shared everything that he could. In 
fact, the words that I remember the most are, You will fly with 
a lot of captains, son, before you get your own command; take 
the best of every one you fly with, throw the worst out, and 
become your own commander. Because of our systems--that we 
trust our first officers, they are not trying to take our job, 
they are not trying to steal our job, they are in a seniority 
system. So we share everything.
    The system that we talked about earlier and the concern 
that we have with the experience of many of the new pilots 
coming into the system and whether we can retain the old, 
experienced ones is based upon the fact that now US Airways, 
Continental Airlines, United Airlines have laid off many of 
their pilots. Our industry is losing those pilots. Many of 
those pilots have 10, 12, 15 years' experience, yet many of our 
other airlines, called our regional carriers, they can't afford 
to go to work there, quite simply. You can't go to work when 
you are 30, 40 years old for $18,000 a year. We lose that 
experience.
    Those are some of the things that we have to address and we 
need to address in the near future.
    Mr. Costello. The Chair thanks you and now recognizes the 
gentleman from Ohio, Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman. And I appreciate you 
again for assembling this panel.
    And Captain Prater, I couldn't agree with you more. I see 
some of the buddies I fly with out of my Air Force Reserve unit 
who go and fly and are making 12 to 15,000 bucks a year; and if 
they didn't have that second income of being a Reserve pilot, 
they would never be able to maintain their duties as a first 
officer on some of these regional jets.
    And I guess I want to hear from Ms. Gilligan, do you concur 
with the testimony that we have heard today from these very 
experienced and well-trained individuals that we are 
approaching a crisis in our aviation industry?
    Ms. Gilligan. We certainly share the concern about where 
the professionals for the next generation are going to come 
from, not just in the piloting ranks, but in the mechanics 
ranks, in the engineering ranks.
    Unfortunately, the reality of the United States is that we 
are not attracting people to those kinds of technical areas. We 
need to work as a community. And we certainly have had our 
conversations and our forum sessions, but no one has really 
come up with the sort of fundamental solution that will attract 
young people into these particular areas. Having said that, we 
need to continue to focus on it.
    But I do want to comment that, you know, we can't replace 
experience, and you can only gain experience with time. But we 
can make sure that anyone who enters the flight deck is trained 
and competent to perform those functions. And I think what you 
are hearing here is that even for those entry-level pilots, 
they are coming in with that kind of training.
    We have a proposal out now actually to strengthen our 
training requirements as well. That final rule will help us 
continue to move forward, trying to supplement experience with 
sufficient training.
    Mr. Boccieri. Can I add, too, that, you know, the military 
is putting stop-loss on critically manned fields so there is 
not an overflow of military pilots into the field. And when it 
costs maybe $5- to $15,000 just to obtain a private pilot's 
license to get an entry level job with, you know, 100, 200, 300 
hours into these, is it just a matter of money? Is it a matter 
of money in terms of where the FAA is going to make their 
assessment?
    Ms. Gilligan. Well, again I think it is also attracting 
skilled and interested young people. We have got to get the 
pool. We have to build the pool larger so that we have the 
skills to draw from.
    The economics of both the industry and generally will 
certainly play a role in where young people choose to go to 
make their careers. I think we at FAA agree that this is an 
exciting industry to be a part of. It has a lot that should 
attract young people into it, and we need to be able to take 
advantage of that.
    Mr. Boccieri. Captain Prater, did you want to comment?
    Mr. Prater. Just a quick comment. Last year I spent 5 days 
with General Renuart doing a six-base tour, and at every air 
base was met by pilots flying F-15s,-16s,-18s,-22s, C-17s. 
Asked every one of them when you complete your duty are you 
considering the airlines? Very, very few said--"I can't afford 
it. I will be 32 when I fill my commitment. I may put in my 20, 
but I am not going to go work for those wages. I will use my 
education and training to take care of my family, as much as I 
love flying."
    Mr. Boccieri. There is no question that they are making 
those kinds of decisions. And the high-skilled training that we 
received in the Air Force is, in my opinion, unmatched. We have 
folks from other countries that come and train with the United 
States Air Force.
    But I guess I am very concerned about this because I hear 
from air traffic controllers that they have equipment that is 
outdated and that they have equipment that could be a real 
jeopardy in terms of making sure that we have a success story 
like we have and we are hearing today.
    And we have got to--and this panel, this Committee, will be 
charged with the responsibility of making sure we have a 21st 
century aviation industry not only from the highly skilled and 
highly trained, but also that we have the right equipment. And 
I guess I want to just hear publicly that we are at this crisis 
mode and that the time to act is now.
    Do you have a comment?
    Ms. Gilligan. Well, again, I think we agree that we need to 
be upgrading the air traffic system. This Committee will have a 
hearing on the Next Generation Air Transportation System 
shortly. You have had other hearings in the past.
    And again, as an industry I think you are seeing that we 
are coming together and we are dedicated to making those kinds 
of improvements. I think the system that we have in place now 
will hold us in good stead while we move toward that 
modernization. But we need to move in that direction.
    Mr. Boccieri. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman from Ohio and 
now recognizes the gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I wanted to focus in 
on the bird radar. It is very interesting.
    As an engineer, I know it is not an easy thing to detect 
birds. So it is interesting to me, Mr. Reis, your testimony on 
this. I am just wondering how close are we, or are there things 
that still need to be worked out with the bird radar to make it 
effective? I know there are issues beyond detecting them. It is 
what you do once you detect them.
    But how close are we to saying we do have this system, 
radar system, that we need?
    Mr. Reis. Well, I think from the perspective of, is the 
system working to detect birds, the simple answer is, yes, that 
system does exist. It is working every day at Sea-Tac. The 
question is, what can you do with that data?
    I mean, at this point, we probably have too much data. The 
key thing for operations is, how do you filter that data down 
to the critical data that would be important to air traffic 
controllers and to pilots or, frankly, long term for airports 
to better understand the dynamics of the bird populations 
around the airport and what we can do about them.
    I think we are closer to the second set of challenges than 
we are the first. We are learning about bird population habits 
beyond what we already knew. We are learning with greater 
accuracy. We can track movements 24 hours a day, 365 days a 
year, as opposed to when people are available to observe it 
manually. So in that way we are going to be better able to 
design our wildlife management plans, our wildlife mitigation 
programs, et cetera. And the bird radar will help us do that in 
the short term.
    I think it would really be more for airline and FAA flight 
experts to offer an observation once we provide them more data 
about the radar as to how readily we would be able to use that 
data in real time to assist air traffic control and/or pilots.
    I would imagine trying to avoid a flock of birds with an 
aircraft is not an easy thing to do. And so I think it is--I 
would want to lower expectations that somehow or another this 
data will be available anytime soon in real time to advise a 
pilot what to do on approach.
    Mr. Lipinski. Thank you. I want to ask Ms. Gilligan, I know 
that O'Hare Airport in Chicago has been slated for--information 
I have that came out in the middle of January--one or two radar 
systems are slated for deployment at O'Hare. Where is that 
right now?
    Ms. Gilligan. Mr. Lipinski, I believe that deployment is 
due within the next couple of months, but I will confirm that 
back to you.
    Mr. Lipinski. Has there been an issue with that? Because I 
think January 16th I have a fact sheet that said it would be 6 
weeks from then. I was just wondering, have there been problems 
with the deployment?
    Ms. Gilligan. No, sir. Not that I am aware. Let me make 
sure that I can confirm to what exactly what the scheduled plan 
is.
    Mr. Lipinski. Thank you. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you and thanks our witnesses 
for appearing here today and offering their very thoughtful 
testimony. We appreciate your testimony and look forward to 
continuing to monitor as the investigation moves forward with 
the NTSB, not only on Flight 1549, but also on the avian issue 
that we are dealing with here, and no doubt will be dealing 
with in the future. So we thank you for your testimony.
    That concludes the hearing. The Subcommittee stands 
adjourned.
    [Whereupon, at 1:01 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T7866.012
    
    [GRAPHIC] [TIFF OMITTED] T7866.013
    
    [GRAPHIC] [TIFF OMITTED] T7866.014
    
    [GRAPHIC] [TIFF OMITTED] T7866.015
    
    [GRAPHIC] [TIFF OMITTED] T7866.016
    
    [GRAPHIC] [TIFF OMITTED] T7866.017
    
    [GRAPHIC] [TIFF OMITTED] T7866.018
    
    [GRAPHIC] [TIFF OMITTED] T7866.019
    
    [GRAPHIC] [TIFF OMITTED] T7866.020
    
    [GRAPHIC] [TIFF OMITTED] T7866.021
    
    [GRAPHIC] [TIFF OMITTED] T7866.022
    
    [GRAPHIC] [TIFF OMITTED] T7866.023
    
    [GRAPHIC] [TIFF OMITTED] T7866.024
    
    [GRAPHIC] [TIFF OMITTED] T7866.025
    
    [GRAPHIC] [TIFF OMITTED] T7866.026
    
    [GRAPHIC] [TIFF OMITTED] T7866.027
    
    [GRAPHIC] [TIFF OMITTED] T7866.028
    
    [GRAPHIC] [TIFF OMITTED] T7866.029
    
    [GRAPHIC] [TIFF OMITTED] T7866.030
    
    [GRAPHIC] [TIFF OMITTED] T7866.031
    
    [GRAPHIC] [TIFF OMITTED] T7866.032
    
    [GRAPHIC] [TIFF OMITTED] T7866.033
    
    [GRAPHIC] [TIFF OMITTED] T7866.034
    
    [GRAPHIC] [TIFF OMITTED] T7866.035
    
    [GRAPHIC] [TIFF OMITTED] T7866.036
    
    [GRAPHIC] [TIFF OMITTED] T7866.037
    
    [GRAPHIC] [TIFF OMITTED] T7866.038
    
    [GRAPHIC] [TIFF OMITTED] T7866.039
    
    [GRAPHIC] [TIFF OMITTED] T7866.040
    
    [GRAPHIC] [TIFF OMITTED] T7866.041
    
    [GRAPHIC] [TIFF OMITTED] T7866.042
    
    [GRAPHIC] [TIFF OMITTED] T7866.043
    
    [GRAPHIC] [TIFF OMITTED] T7866.044
    
    [GRAPHIC] [TIFF OMITTED] T7866.045
    
    [GRAPHIC] [TIFF OMITTED] T7866.046
    
    [GRAPHIC] [TIFF OMITTED] T7866.047
    
    [GRAPHIC] [TIFF OMITTED] T7866.048
    
    [GRAPHIC] [TIFF OMITTED] T7866.049
    
    [GRAPHIC] [TIFF OMITTED] T7866.050
    
    [GRAPHIC] [TIFF OMITTED] T7866.051
    
    [GRAPHIC] [TIFF OMITTED] T7866.052
    
    [GRAPHIC] [TIFF OMITTED] T7866.053
    
    [GRAPHIC] [TIFF OMITTED] T7866.054
    
    [GRAPHIC] [TIFF OMITTED] T7866.055
    
    [GRAPHIC] [TIFF OMITTED] T7866.056
    
    [GRAPHIC] [TIFF OMITTED] T7866.057
    
    [GRAPHIC] [TIFF OMITTED] T7866.058
    
    [GRAPHIC] [TIFF OMITTED] T7866.059
    
    [GRAPHIC] [TIFF OMITTED] T7866.060
    
    [GRAPHIC] [TIFF OMITTED] T7866.061
    
    [GRAPHIC] [TIFF OMITTED] T7866.062
    
    [GRAPHIC] [TIFF OMITTED] T7866.063
    
    [GRAPHIC] [TIFF OMITTED] T7866.064
    
    [GRAPHIC] [TIFF OMITTED] T7866.065
    
    [GRAPHIC] [TIFF OMITTED] T7866.066
    
    [GRAPHIC] [TIFF OMITTED] T7866.067
    
    [GRAPHIC] [TIFF OMITTED] T7866.068
    
    [GRAPHIC] [TIFF OMITTED] T7866.069
    
    [GRAPHIC] [TIFF OMITTED] T7866.070
    
    [GRAPHIC] [TIFF OMITTED] T7866.071
    
    [GRAPHIC] [TIFF OMITTED] T7866.072
    
    [GRAPHIC] [TIFF OMITTED] T7866.073
    
    [GRAPHIC] [TIFF OMITTED] T7866.074
    
    [GRAPHIC] [TIFF OMITTED] T7866.075
    
    [GRAPHIC] [TIFF OMITTED] T7866.076
    
    [GRAPHIC] [TIFF OMITTED] T7866.077
    
    [GRAPHIC] [TIFF OMITTED] T7866.078
    
    [GRAPHIC] [TIFF OMITTED] T7866.079
    
    [GRAPHIC] [TIFF OMITTED] T7866.080
    
    [GRAPHIC] [TIFF OMITTED] T7866.081
    
    [GRAPHIC] [TIFF OMITTED] T7866.082
    
    [GRAPHIC] [TIFF OMITTED] T7866.083
    
    [GRAPHIC] [TIFF OMITTED] T7866.084
    
    [GRAPHIC] [TIFF OMITTED] T7866.085
    
    [GRAPHIC] [TIFF OMITTED] T7866.086
    
    [GRAPHIC] [TIFF OMITTED] T7866.087
    
    [GRAPHIC] [TIFF OMITTED] T7866.088
    
    [GRAPHIC] [TIFF OMITTED] T7866.089
    
    [GRAPHIC] [TIFF OMITTED] T7866.090
    
    [GRAPHIC] [TIFF OMITTED] T7866.091
    
    [GRAPHIC] [TIFF OMITTED] T7866.092
    
    [GRAPHIC] [TIFF OMITTED] T7866.093
    
    [GRAPHIC] [TIFF OMITTED] T7866.094
    
    [GRAPHIC] [TIFF OMITTED] T7866.095
    
    [GRAPHIC] [TIFF OMITTED] T7866.096
    
    [GRAPHIC] [TIFF OMITTED] T7866.097
    
    [GRAPHIC] [TIFF OMITTED] T7866.098
    
    [GRAPHIC] [TIFF OMITTED] T7866.099
    
    [GRAPHIC] [TIFF OMITTED] T7866.100
    
    [GRAPHIC] [TIFF OMITTED] T7866.101
    
    [GRAPHIC] [TIFF OMITTED] T7866.102
    
    [GRAPHIC] [TIFF OMITTED] T7866.103
    
    [GRAPHIC] [TIFF OMITTED] T7866.104
    
    [GRAPHIC] [TIFF OMITTED] T7866.105
    
    [GRAPHIC] [TIFF OMITTED] T7866.106
    
    [GRAPHIC] [TIFF OMITTED] T7866.107
    
    [GRAPHIC] [TIFF OMITTED] T7866.108
    
    [GRAPHIC] [TIFF OMITTED] T7866.109
    
    [GRAPHIC] [TIFF OMITTED] T7866.110
    
    [GRAPHIC] [TIFF OMITTED] T7866.111
    
    [GRAPHIC] [TIFF OMITTED] T7866.112
    
    [GRAPHIC] [TIFF OMITTED] T7866.113
    
    [GRAPHIC] [TIFF OMITTED] T7866.114
    
    [GRAPHIC] [TIFF OMITTED] T7866.115
    
    [GRAPHIC] [TIFF OMITTED] T7866.116
    
    [GRAPHIC] [TIFF OMITTED] T7866.117
    
    [GRAPHIC] [TIFF OMITTED] T7866.118
    
    [GRAPHIC] [TIFF OMITTED] T7866.119
    
    [GRAPHIC] [TIFF OMITTED] T7866.120
    
    [GRAPHIC] [TIFF OMITTED] T7866.121
    
    [GRAPHIC] [TIFF OMITTED] T7866.122
    
    [GRAPHIC] [TIFF OMITTED] T7866.123
    
    [GRAPHIC] [TIFF OMITTED] T7866.124
    
    [GRAPHIC] [TIFF OMITTED] T7866.125
    
    [GRAPHIC] [TIFF OMITTED] T7866.126
    
    [GRAPHIC] [TIFF OMITTED] T7866.127
    
    [GRAPHIC] [TIFF OMITTED] T7866.128
    
    [GRAPHIC] [TIFF OMITTED] T7866.129
    
    [GRAPHIC] [TIFF OMITTED] T7866.130
    
    [GRAPHIC] [TIFF OMITTED] T7866.131
    
    [GRAPHIC] [TIFF OMITTED] T7866.132
    
    [GRAPHIC] [TIFF OMITTED] T7866.133
    
    [GRAPHIC] [TIFF OMITTED] T7866.134
    
    [GRAPHIC] [TIFF OMITTED] T7866.135
    
    [GRAPHIC] [TIFF OMITTED] T7866.136
    
    [GRAPHIC] [TIFF OMITTED] T7866.137
    
    [GRAPHIC] [TIFF OMITTED] T7866.138
    
    [GRAPHIC] [TIFF OMITTED] T7866.139
    
    [GRAPHIC] [TIFF OMITTED] T7866.140
    
    [GRAPHIC] [TIFF OMITTED] T7866.141
    
    [GRAPHIC] [TIFF OMITTED] T7866.142
    
    [GRAPHIC] [TIFF OMITTED] T7866.143
    
    [GRAPHIC] [TIFF OMITTED] T7866.144
    
    [GRAPHIC] [TIFF OMITTED] T7866.145
    
    [GRAPHIC] [TIFF OMITTED] T7866.146
    
    [GRAPHIC] [TIFF OMITTED] T7866.147
    
    [GRAPHIC] [TIFF OMITTED] T7866.148
    
    [GRAPHIC] [TIFF OMITTED] T7866.149
    
    [GRAPHIC] [TIFF OMITTED] T7866.150
    
    [GRAPHIC] [TIFF OMITTED] T7866.151
    
    [GRAPHIC] [TIFF OMITTED] T7866.152
    
    [GRAPHIC] [TIFF OMITTED] T7866.153
    
    [GRAPHIC] [TIFF OMITTED] T7866.154
    
    [GRAPHIC] [TIFF OMITTED] T7866.155
    
    [GRAPHIC] [TIFF OMITTED] T7866.156
    
    [GRAPHIC] [TIFF OMITTED] T7866.157
    
    [GRAPHIC] [TIFF OMITTED] T7866.158
    
    [GRAPHIC] [TIFF OMITTED] T7866.159
    
    [GRAPHIC] [TIFF OMITTED] T7866.160
    
    [GRAPHIC] [TIFF OMITTED] T7866.161
    
    [GRAPHIC] [TIFF OMITTED] T7866.162
    
    [GRAPHIC] [TIFF OMITTED] T7866.163
    
    [GRAPHIC] [TIFF OMITTED] T7866.164
    
    [GRAPHIC] [TIFF OMITTED] T7866.165
    
    [GRAPHIC] [TIFF OMITTED] T7866.166
    
    [GRAPHIC] [TIFF OMITTED] T7866.167
    
    [GRAPHIC] [TIFF OMITTED] T7866.168
    
    [GRAPHIC] [TIFF OMITTED] T7866.169
    
    [GRAPHIC] [TIFF OMITTED] T7866.170
    
    [GRAPHIC] [TIFF OMITTED] T7866.171
    
    [GRAPHIC] [TIFF OMITTED] T7866.172
    
    [GRAPHIC] [TIFF OMITTED] T7866.173
    
    [GRAPHIC] [TIFF OMITTED] T7866.174
    
    [GRAPHIC] [TIFF OMITTED] T7866.175
    
    [GRAPHIC] [TIFF OMITTED] T7866.176
    
    [GRAPHIC] [TIFF OMITTED] T7866.177
    
    [GRAPHIC] [TIFF OMITTED] T7866.178
    
    [GRAPHIC] [TIFF OMITTED] T7866.179
    
    [GRAPHIC] [TIFF OMITTED] T7866.180
    
    [GRAPHIC] [TIFF OMITTED] T7866.181
    
    [GRAPHIC] [TIFF OMITTED] T7866.182
    
    [GRAPHIC] [TIFF OMITTED] T7866.183
    
    [GRAPHIC] [TIFF OMITTED] T7866.184
    
    [GRAPHIC] [TIFF OMITTED] T7866.185
    
    [GRAPHIC] [TIFF OMITTED] T7866.186
    
    [GRAPHIC] [TIFF OMITTED] T7866.187
    
    [GRAPHIC] [TIFF OMITTED] T7866.188
    
    [GRAPHIC] [TIFF OMITTED] T7866.189
    
    [GRAPHIC] [TIFF OMITTED] T7866.190
    
    [GRAPHIC] [TIFF OMITTED] T7866.191
    
    [GRAPHIC] [TIFF OMITTED] T7866.192
    
    [GRAPHIC] [TIFF OMITTED] T7866.193
    
    [GRAPHIC] [TIFF OMITTED] T7866.194
    
    [GRAPHIC] [TIFF OMITTED] T7866.195
    
    [GRAPHIC] [TIFF OMITTED] T7866.196
    
    [GRAPHIC] [TIFF OMITTED] T7866.197
    
    [GRAPHIC] [TIFF OMITTED] T7866.198
    
    [GRAPHIC] [TIFF OMITTED] T7866.199
    
    [GRAPHIC] [TIFF OMITTED] T7866.200
    
    [GRAPHIC] [TIFF OMITTED] T7866.201
    
    [GRAPHIC] [TIFF OMITTED] T7866.202
    
    [GRAPHIC] [TIFF OMITTED] T7866.203
    
    [GRAPHIC] [TIFF OMITTED] T7866.204
    
    [GRAPHIC] [TIFF OMITTED] T7866.205
    
    [GRAPHIC] [TIFF OMITTED] T7866.206
    
    [GRAPHIC] [TIFF OMITTED] T7866.207
    
    [GRAPHIC] [TIFF OMITTED] T7866.208
    
    [GRAPHIC] [TIFF OMITTED] T7866.209
    
    [GRAPHIC] [TIFF OMITTED] T7866.210
    
                                    

</pre></body></html>
